<html>
<title> - NOMINATION OF LIEUTENANT GENERAL JAMES CLAPPER, JR., USAF, RET., TO BE DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 111-857]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-857
 
                    NOMINATION OF LIEUTENANT GENERAL
                 JAMES CLAPPER, JR., USAF, RET., TO BE
                   DIRECTOR OF NATIONAL INTELLIGENCE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, JULY 20, 2010

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
63-996                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a>  

                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
              CHRISTOPHER S. BOND, Missouri, Vice Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
    Virginia                         OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JAMES E. RISCH, Idaho
BILL NELSON, Florida
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


                                CONTENTS

                              ----------                              

                             JULY 20, 2010

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     3
Mikulski, Hon. Barbara A., a U.S. Senator from Maryland..........     6

                                WITNESS

Lieutenant General James R. Clapper,Jr., USAF, Ret., Director of 
  National Intelligence-Designate................................     7
    Prepared statement...........................................     8

                         SUPPLEMENTAL MATERIAL

Prepared statement of Senator Russell D. Feingold................    33
Questionnaire for Completion by Presidential Nominees............    52
Article titled ``The Role of Defense in Shaping U.S. Intelligence 
  Reform'' by James R. Clapper, Jr...............................    67
Prehearing Questions and Responses...............................    79
Letter from Robert I. Cusick, Office of Government Ethics, Dated 
  June 15, 2010, to Senator Dianne Feinstein, Transmitting Public 
  Financial Disclosure Report....................................   168
Letter from Susan S. Gibson, Dated June 7, 2010, to Robert I. 
  Cusik..........................................................   177
Letter from James R. Clapper, Jr., Dated June 7, 2010, to Susan 
  S. Gibson......................................................   178
Posthearing Questions and Responses..............................   179
Article titled ``Reorganiztion of DIA and Defense Intelligence 
  Activities'' by James R. Clapper, Jr...........................   202
Article titled ``The Newly Revived National Imagery and Mapping 
  Agency: Geospatial Imagery & Intelligence in 2002 and Beyond'' 
  by James R. Clapper, Jr........................................   210
Article titled ``Desert War Was Crucible for Intelligence 
  Systems'' by James R. Clapper, Jr..............................   215
Article titled ``Defense Intelligence Reorganization and 
  Challenges'' by James R. Clapper, Jr...........................   219
Article titled ``Challenging Joint Military Intelligence'' by 
  James R. Clapper, Jr...........................................   227
Article titled ``Critical Security Dominates Information Warfare 
  Moves'' by James R. Clapper, Jr. and Eben H. Trevino, Jr.......   235


 NOMINATION OF LIEUTENANT GENERAL JAMES CLAPPER, JR., USAF, RET., TO BE
                   DIRECTOR OF NATIONAL INTELLIGENCE

                              ----------                              


                         TUESDAY, JULY 20, 2010

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:43 p.m, in Room 
SDG-50, Dirksen Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Wyden, 
Mikulski, Feingold, Nelson of Florida, Whitehouse, Levin, Bond, 
Hatch, Snowe, Chambliss, Burr, Coburn, and Risch.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The hearing will come to order. This 
room is on the cool side, probably the coolest place in 
Washington today. But I'd like to welcome everyone to this 
hearing. We meet today in open session to consider President 
Obama's nominee to be the nation's fourth Director of National 
Intelligence, General James Clapper. So welcome, General 
Clapper.
    The position of the DNI, as we call him, the Director of 
National Intelligence, is the senior most intelligence position 
in the government. The DNI is by statute, the head of the 16 
different intelligence offices and agencies that make up the 
intelligence community, the principal advisor to the President 
on intelligence matters, and the official in charge of 
developing the intelligence budget.
    As has been made clear over the first five years of the 
existence of the position, the true extent of the director's 
authority and the exact nature of the job he is supposed to do 
are still a matter of some debate. As the articles yesterday 
and today in The Washington Post have made clear, the DNI faces 
major management challenges caused by the enormous growth 
throughout those intelligence agencies and other parts of the 
government's national security complex since 9/11.
    The articles raised several issues such as the high 
infrastructure expansion of buildings and data systems. 
Yesterday's article specifically names--and I won't read them 
out, but one, two, three, four, five, six--seven, huge new 
buildings, all of which, as was pointed out, will obviously 
have to accommodate individuals and all kinds of support 
services and positions.
    The article also describes a contractor number that now 
reaches approximately 28 percent to 30 percent of the entire 
intelligence workforce and carries out inherently governmental 
functions, contrary to policies of the Office of Management and 
Budget. The authors count 1,271 government organizations and 
1,931 private companies that work on programs related to 
counterterrorism, homeland security and intelligence.
    Under the past two DNIs and CIA directors, the number of 
contractors has been coming down slightly. And I'm pleased that 
they are no longer being used to conduct interrogation. 
Nonetheless, the use of contractors needs to continue to 
decrease substantially, and I intend to keep pushing on this 
point until contractors are not used for any inherently 
governmental purpose.
    Our original fiscal year 2010 intelligence authorization 
bill contained a requirement that would have reduced the number 
of contractors across the community by 10 percent from 2009 to 
2010. But because of the delay in passing the bill, this cut 
has not gone into effect.
    Like the Post's articles, this committee has found, as 
evidenced by our report on the Christmas Day plot, that 
intelligence growth has not always led to improved performance. 
Growth in the size and number of agencies, offices, task forces 
and centers has also challenged the ability of former Directors 
of National Intelligence to truly manage the community.
    As a sponsor of the first legislation calling for the 
creation of the position, I have long believed that the DNI 
needs to be a strong leader and have real authority. Clearly 
there is need for a strong, central figure or the balkanization 
of these 16 agencies will continue.
    However, this cannot be just another layer of bureaucracy. 
The DNI must be both a leader as well as a coordinator of this 
increasingly sprawling intelligence community. But the DNI must 
also be, at times, more than that. He must be able to carry out 
Presidential direction and shift priorities based on national 
security concerns and emerging needs.
    In actual practice, the DNI is constrained from directing 
15 of the 16 elements of the community because they reside in 
various federal departments. And the Intelligence Reform and 
Terrorism Prevention Act of 2004 states that, in carrying out 
his responsibilities--and this is the rub--the DNI may not 
abrogate the statutory responsibilities of the Secretaries. 
This is often interpreted in real life to prevent centralized 
direction. The 16th agency, the CIA, is not housed within a 
department, but it, too, has demonstrated its ability to thwart 
the DNI's directives it dislikes by importuning the White 
House.
    We understand from former officials in the DNI's office 
that both problems have greatly frustrated past DNIs' ability 
to lead. Every day of every week, month by month, the DNI must 
assure coordination between intelligence agencies to eliminate 
duplication and improve information sharing. And, when 
necessary, he must put an end to programs that are not working 
and avoid redundancy and overlap. I increasingly believe that 
this is becoming a major issue.
    The 2010 Intelligence authorization bill reported out, 
again unanimously, in revised form last week, which the White 
House has approved and the House intelligence committee 
supports, contains 10 provisions that would strengthen or add 
management flexibilities for the DNI. Eight of those 10 were 
requested by this or prior administrations. I urge the House to 
pass this bill.
    The primary mission of the DNI is to make sure that the 
intelligence community produces information that enables 
policymakers to make informed decisions. This mission includes 
ensuring that the Department of Defense and military commanders 
have the information they need to carry out military operations 
and force protection. Yet it also covers the full range of 
national security, foreign policy and homeland security 
information needs.
    I want to make sure that General Clapper, if confirmed, 
will wear the mantle of the Director of National Intelligence, 
not just the hat he wears today as Director of Defense 
intelligence, and that he will have the necessary broad, 
strategic focus and support that this position requires.
    So I will be interested in continuing to discuss with our 
nominee the proper role of the DNI, what the mission should be 
and how strong the authority should be to carry out that 
mission.
    Not in question is General Clapper's vast experience or 
dedication to public service. He has served his country for 
more than 40 years in a variety of capacities, 32 of those 40 
years in active duty in the United States Air Force, retiring 
in 1995 as a lieutenant general. He has led two of the larger 
intelligence agencies, the Defense Intelligence Agency and the 
National Imagery and Mapping Agency, since renamed the National 
Geospatial-Intelligence Agency, or NGA. And he is currently the 
Under Secretary of Defense for Intelligence, a position he has 
held since 2007, meaning that he is one of the few national 
security officials to serve under both the Bush and Obama 
administrations.
    In short, this nominee has as much experience in 
intelligence as any serving or retired official. So, General 
Clapper, I want to be clear that we do not question your 
service, your knowledge or your capability. We only ask that 
you clearly indicate your vision and commitment to head the 
intelligence community this afternoon and work to give it 
direction and prevent sprawl, overlap and duplication.
    Before I turn to our distinguished Vice Chairman, I 
understand, General, that you have family and friends with you 
today. If you'd like to introduce them at this time--well, I 
think I'll change this and ask the ranking member to go ahead, 
if that's agreeable, then ask you to introduce your family, and 
then I know Senator Mikulski would like to say a few words, I 
suspect, on your behalf. I call on the Vice Chairman.
    Mr. Vice Chairman.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you, Madam Chair, and as usual, I 
agree with your opening statements, and I join you in welcoming 
General Clapper to the committee for consideration of his 
nomination to serve as the Director of National Intelligence.
    The outgoing Director of National Intelligence, Admiral 
Dennis Blair, deserves our thanks for his many years of service 
to the nation, including his work as the previous DNI. Admiral 
Blair faced a number of unfortunate challenges during his 
tenure, as other administration officials increasingly assumed 
greater control over intelligence community activities. The 
next DNI must have the political clout, the willpower to ensure 
that our intelligence agencies are able to get their vital work 
done without being micromanaged by the Department of Justice or 
the National Security Council.
    It is my hope that the next DNI will assert this needed 
leadership over the intelligence community. Something the 
George W. Bush administration got right in this area was 
placing key people in the jobs who were responsible to the 
Congress. For example, there was no question that John 
Negroponte, and then, most notably, Admiral Mike McConnell, 
were the President's principal intelligence advisors, as they 
should be under United States law. At that time, the public did 
not even know the names of intelligence staffers on the 
National Security Council. Today, the paradigm has been 
reversed. We have a staffer on the National Security Council, 
who most people in the intelligence community believe acts as 
the DNI.
    He calls the shots and even goes on national television to 
pitch the administration's viewpoint. A June 6 Washington Post 
article was spot on in describing his role in today's 
intelligence. This is not good for the country and is contrary 
to Congress' intent for the IC. If the President would like him 
to act as his principal intelligence advisor and head of the 
intelligence community, then I'll be happy to co-host his 
confirmation hearing with the Chair. But if not, then this 
template needs to change.
    Turning to you, General Clapper, as the Chair has already 
mentioned, you've served our nation well. You have a long 
background in very demanding leadership roles in the military 
and the intelligence community, and I think we all thank you 
for an impressive 46 years of service to our nation in the 
field of, primarily, intelligence. But you know that I have 
concerns about whether you will be able to do what Director 
Blair could not.
    You've talked about leaving federal service for some time, 
yet you are now seeking one of the hardest jobs in Washington, 
one fraught with maximum tensions. Frankly, today I ask you to 
tell us why? Our nation is at a critical point. We're six years 
into this experience of intelligence reform, and I'm afraid we 
have a long way to go. The recent Washington Post top secret 
series highlights what I and others on the committee have been 
saying for a long time. The intelligence community is lacking 
effective oversight. And today, I hope we can focus on whether 
you, General Clapper, will have the horsepower needed in the 
White House to use the DNI as the position for reform and 
management it needs to be.
    The DNI, in the next round, will need to be a fire in the 
gut guy who is willing to break paradigms and trends against 
business as usual. He needs to be someone who is not 
reluctantly accepting the job, but is willing to take on the 
old guard and change broken ways of going about intelligence. 
We don't need our top spy chief to be a figurehead who cedes 
authority to the Justice Department. Instead, we need a DNI who 
can oversee our nation's terror-fighting policy.
    We need a DNI who will push the envelope on his authorities 
and advance the institution's ability to lead our intelligence 
agencies. Just as important, we need someone who can throw some 
elbows and take back control of our intelligence agency from 
DOJ, White House bureaucrats and even the DOD. Also, he must 
establish a clear chain of command between the CIA and the DNI.
    While the 2004 intelligence reform bill was certainly a 
step forward in our efforts to reform the intelligence 
community, it fell well short of what I hoped Congress would 
achieve--namely, as I've said many times and said to you, the 
DNI was given a load of responsibility without the authority or 
all the tools needed truly to lead our intelligence agencies.
    The arm wrestling that took place between DNI Blair and the 
CIA director over who would appoint the DNI's representatives 
overseas was a clear sign to me that we do not yet have the 
right balance, but we have to get it right if we hope to meet 
the national security challenges ahead.
    Now, previously you've been inconsistent in whether the DNI 
should be granted additional authorities to lead our 
intelligence agencies. While some have rationalized this 
wavering as an example of the old adage, ``Where you sit is 
where you stand''--in other words, you protect the turf of 
whatever institution you lead--I don't take much comfort in 
that explanation. That's not the hallmark of the sort of leader 
that we need at the head of the intelligence community.
    You reference in your prepared opening statement that a 
number of Members have raised concerns about your affiliation 
with the Department of Defense. Well, I think that is a valid 
concern. When the President called the Chair and me to inform 
us of your nomination, his first selling point was that you 
were strongly supported by the Defense Secretary and the Senate 
Armed Services Committee.
    I have to tell you, General, that's not the best way to put 
you forward to this committee as the next leader of the 
intelligence community. We're happy that the Defense Department 
and Armed Services Committee love you, but frankly, that's not 
what we're looking for.
    Now, I am a big supporter of the Defense Department. And as 
I said, my son was in Iraq and three of my staff on the 
committee voluntarily took leaves of absence over the past two 
years to serve in harm's way in uniform in Iraq and 
Afghanistan, and we appreciate their service like all of the 
members of the armed services.
    But at the strategic level, an overemphasis on DOD within 
the intelligence community can be counterproductive. We've seen 
this problem with the State Department, and it's struggled to 
regain the lead from the Pentagon in smart power activities.
    This is one reason the memo from your office to the Senate 
Armed Services Committee a few weeks ago, which criticized 13 
specific provisions in this committee's authorization bill, was 
not well received here. You said you felt obligated to afford 
the Armed Services Committee the opportunity to hear your 
criticisms of the bill. We would have appreciated that same 
courtesy being extended to this committee, first and foremost, 
since you are dual-hatted as under our structure.
    It is our bill; you are the DNI, Director of National 
Intelligence. The memo is something that I believe you should 
have addressed to us upfront, and on the record at the end of 
your opening statement today I would hope you might reference 
it.
    We have to get the relationship between the IC and its 
overseers right. Congressional oversight is instrumental in 
advancing the DNI's leadership of the intelligence community. 
Through such oversight Congress can ensure that not only the 
DNI understands the expectations of his position but that other 
agencies recognize the DNI's leadership.
    General, too much of your previous contact with this 
committee has been too reluctant and reactive. We have to have 
a DNI who works proactively to meet his obligations under the 
law, to keep the Senate Intelligence Committee fully and 
currently informed. And that requires a good and open working 
relationship.
    Today is your opportunity to instill in this committee the 
confidence that you're up to the task of leading the 
intelligence community while complying with your statutory 
obligations to work with this committee. And I wish you the 
very best, sir.
    Madam Chair, we've had far too many DNI confirmation 
hearings in our time together on the SSCI. I believe this high 
turnover rate is a symptom of the inadequate authorities that 
the IRTPA invested in the DNI. If we are unable to address 
those legislative shortcomings in the remaining time in this 
Congress, then I hope this is something you and the next 
ranking Republican will begin to address next year in the new 
Congress.
    And I thank you, Madam Chair and General.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Senator Mikulski, it's my understanding you have a few 
comments you'd like to offer.

 OPENING STATEMENT OF HON. BARBARA A. MIKULSKI, A U.S. SENATOR 
                         FROM MARYLAND

    Senator Mikulski. Thank you, Madam Chair. I'm going to be 
very brief, because I know we want to get quickly to the 
hearing.
    I'm one of the people that's worked hands-on with Mr. 
Clapper. And I would like to just say to the committee, first 
of all, like you, I know we've been through four DNI 
confirmations, four DNIs. And if there is a failure in or 
questions about the authority and the functionality of the DNI, 
then it's incumbent on Congress to look at the legislation, but 
not necessarily fault the DNI nominee for the failures of the 
legislative framework.
    But let me just say this about Mr. Clapper: One of the 
things--look, you all know me as straight-talking, plain-
talking, kind of no-nonsense. And one of the things in working 
with Mr. Clapper as head of the NGA was, again, his candor, his 
straightforwardness, his willingness to tell it like it is--not 
the way the top brass wanted to hear it--I thought was 
refreshing and enabled us to work very well.
    I think that in his job he will be able to speak truth to 
power--which God knows we need it--and he will speak truth 
about power, which we also need. And I would hope that as we 
say, oh, gee, we don't know if we want a military guy chairing 
or heading the DNI, Mr. Clapper left the military service in 
1995. He's been a civilian. He doesn't come with the whole 
extensive, often military staff that people bring with them 
when they take a civilian job. And I think in my mind he's 
probably the best qualified to do this job, because he's not 
only been a night hawk standing sentry over the United States 
of America, but he's actually run an intelligence agency and 
he's actually had to run a big bureaucracy. And he's had to run 
with sometimes very inadequate leadership at the top.
    So we ought to give him a chance and I think we ought to 
hear what he has to say today. I acknowledge the validity of 
the questions the Chair and the ranking member have raised, but 
I think we would do well to approve General Clapper.
    Vice Chairman Bond. Madam Chair, if I may thank my friend 
from Maryland for helping me get my voice back and wish her a 
very happy birthday.
    Chairman Feinstein. Happy birthday, Senator. We did this in 
caucus and gave her a rousing verse.
    Senator Mikulski. I thank you for your gallantry, but 
sometimes state secrets ought to be kept state secrets.
    [Laughter.]
    Vice Chairman Bond. I didn't mention any years or anything. 
Just the date.
    Senator Mikulski. Well done.
    Chairman Feinstein. Clapper, if you would like to introduce 
your family, please, we'd like to welcome them and then proceed 
with your comments.

STATEMENT OF LIEUTENANT GENERAL JAMES CLAPPER, JR., USAF, RET., 
               DIRECTOR OF NATIONAL INTELLIGENCE-
                           DESIGNATE

    General Clapper. I'd like to introduce my family and 
friends who are with me today. First, my wife of 45 years, Sue, 
who herself is a former NSA employee, my daughter Jennifer and 
her husband Jay. She is a principal of an elementary school in 
Fairfax County and Jay is a high school teacher; my brother 
Mike from Illinois, and my sister, Chris, who just moved to 
North Carolina; and a close friend of ours who is with us 
today.
    Chairman Feinstein. We welcome you all.
    General Clapper. Chairman Feinstein, Vice Chairman Bond and 
distinguished members of the committee, it is indeed a 
privilege and an honor for me to appear before you today as 
President Obama's nominee to serve as the fourth Director of 
National Intelligence. Additionally, I want to thank Senator 
Mikulski for your introduction. It was very thoughtful and 
touching to me personally.
    Being nominated for this position for me was an unexpected 
turn of events. I'm in my third tour back in the government. My 
plan was to walk out of the Pentagon about a millisecond after 
Secretary Gates. I had no plan or inkling to take on another 
position. But as in the past, I've always been a duty guy at 
heart, and so when approached by Secretary Gates, followed by 
the President of the United States of America, both of whom I 
have the highest respect for, I could not say no. I'm honored 
that President Obama has expressed confidence in my abilities 
and experience by this nomination.
    I've submitted a longer statement for the record, subject 
to your concurrence. If I can deliver one message to you here 
today, it is this: I've served over 46 years in the 
intelligence profession in many capacities--in peace, in 
crisis, in combat, in uniform, as a civilian, in and out of 
government and in academe. I've tried hard to serve in each 
such capacity with the best interests of our great nation first 
and foremost. Should I be confirmed as Director of National 
Intelligence, I can assure you that will continue to be my 
central motivation.
    We have the largest, most capable intelligence enterprise 
on the planet. It is a solemn sacred trust to the DNI to make 
that enterprise work for the sake of this nation and its 
people. Intelligence is a team endeavor and the DNI is in the 
unique and distinctive position to harness and synchronize the 
diverse capabilities of the entire community and make it run as 
a coherent enterprise.
    I want to repeat something here today publicly that I've 
said to many of you privately. I do believe strongly in the 
need for congressional oversight, and if confirmed, I would 
continue to forge an even closer partnership with the oversight 
committee.
    It's the highest distinction in my professional career to 
have been nominated for this extremely critical position, 
particularly in this difficult time throughout the world.
    This concludes my formal statement. I'd be prepared to 
respond to your questions, or Madam Chairman, if you'd like, I 
can respond now to your commentary as well as that of the 
Ranking Member.
    [The prepared statement of General Clapper follows:]
    Prepared Statement of Lieutenant General James R. Clapper, Jr., 
              Director of National Intelligence-Designate

    Madam Chairman, Vice Chairman Bond, and distinguished Members of 
the Committee, it is a privilege to appear before you today as the 
President's nominee for Director of National Intelligence: I am truly 
honored that the President has confidence in my ability to lead our 
Intelligence Community. My deepest appreciation goes out to him for the 
nomination, and. my sincere thanks to all of you, the overseers of our 
nation's intelligence services, for the opportunity to address you and 
answer your questions here today.
    When President Obama asked me to lead this organization he said he 
wanted someone who could build the Intelligence Community into an 
integrated team that produces quality, timely, and accurate 
intelligence; be his principal intelligence advisor; be the leader of 
our Intelligence Community; and be someone who would tell policymakers 
what they needed to know, even if it wasn't what they wanted to hear. 
Lastly, he needed someone who knew how to get things done in a 
bipartisan, professional manner.
    While humbled by the nomination, I reflect upon my 46 years of 
experience in the intelligence business and find confidence in my 
ability to serve diligently and competently in the position of Director 
of National Intelligence, should I be confirmed.
    I have heard expressions of concern about my independence; as a 
long-time denizen of the Department of Defense, and whether I might be 
too beholden to it, and, thus, skew things in favor of the military. I 
have been out of uniform for almost 15 years, over six of which were 
completely out of the government. The former Secretary of Defense ended 
my tenure as Director of NGA three months earlier than originally 
planned, because I was regarded as too ``independent.'' I am a ``truth 
to power'' guy, and try always to be straight up about anything I'm 
asked.
    Having said that, I feel my experience in the military--starting 
with my two tours of duty during the Southeast Asia conflict--provided 
a wealth of experience in intelligence which has been expanded and 
honed by the things I've done since retiring from military service in 
1995. Thus, I have been a practitioner in virtually every aspect of 
intelligence.
    Over the course of my career, I served as a Commander in combat, as 
well as a Wing Commander and Commander of a Scientific and Technical 
Intelligence Center. I have also served as a Director of Intelligence 
(J-2) for three war-fighting commands and led two intelligence 
agencies. I learned every aspect of intelligence collection, analysis, 
operations, planning and programming, and application and in all other 
disciplines--HUMINT, GEOINT, MASINT, Foreign Material, Counter-
intelligence, and other more arcane forms of technical intelligence. I 
have been widely exposed to the workings of the entire U.S. 
Intelligence Community around the globe.
    I have also worked as a contractor for four companies, with 
intelligence as my primary focus. This gave me great insight into the 
roles as well as the strengths and limits of contractors, how the 
government looks from the outside, and what drives a commercial entity 
as it competes for, wins, and fulfills contracts.
    I served on many government boards, commissions and panels over my 
career. Specifically, I served as Vice Chairman of a Congressionally 
mandated Commission chaired by former Governor of Virginia, Jim 
Gilmore, for almost three years. Based on this experience I learned a 
great deal on how issues are perceived at the State and local levels, 
and helped formulate recommendations, which, in part, presaged the 
subsequent formation of the Department of Homeland Security.
    As the Under Secretary of Defense for Intelligence, I helped 
exercise civilian control over the military, served as Program 
Executive for the Military Intelligence Program, and developed and 
promulgated standards and policy across the entire range of the 
intelligence, counter-intelligence, and security dimensions of the 
Department of Defense.
    Apart from all this functional experience, I have lived the history 
of the Intelligence Community for that same time span. I think the 
amalgam of this experience--the breadth, depth, and scope--equips me to 
deal with the demands of the DNI--a position which demands extensive 
knowledge of the entirety of the US intelligence enterprise.
    I think, too often, people assume that the Intelligence Community 
is equally adept at divining both secrets (which are theoretically 
knowable) and mysteries (which are generally unknowable) . . . but we 
are not. Normally, the best that Intelligence can do is to reduce 
uncertainty for decision-makers--whether in the White House, the 
Congress, the Embassy, or the fox hole--but rarely can intelligence 
eliminate such uncertainty.
    But in order to provide the best intelligence support to our 
nation, our leaders and decision-makers, the DNI can and must foster 
the collaboration and cooperation of the Intelligence Community. 
Intelligence is a team effort. Given the complexity and diversity of 
the Intelligence Community--we must view it as an enterprise of 
complementary capabilities that must be synchronized. To be specific, 
the DNI will need to serve the President and work with all members of 
the community and the Congress as well as with many others, to be 
successful in fulfilling the President's vision.
    Madam Chairman, Mr. Vice Chairman, if confirmed, I pledge not only 
to follow the law, but to go a step further and endeavor, as best as I 
am able, to build upon and increase the trust between Congress and DNI. 
That's not to say we'll always see things the same way. And that's not 
to say you won't question us and hold us accountable where 
appropriate--I expect nothing less. But our objective ought to be the 
same: to give the Intelligence Community all that it needs to succeed, 
consistent with our laws and values. If confirmed, I believe I can do 
that. I have had very positive discussions with CIA, FBI, and other 
leaders across the Intelligence Community, and I am quite encouraged by 
their commitment to making this team work should I be confirmed.
    Additionally, keeping this Committee ``fully and currently'' 
informed is not an option. It is the law, and it is our solemn 
obligation. I was a young Air Force officer at NSA in the seventies, 
and watched the Church-Pike hearings, which led to, among other things, 
the establishment of the intelligence oversight committees in both 
Houses of Congress. I am a strong believer in the need for an informed 
Congress. I say this not only as an intelligence-career professional, 
but as a citizen. I have interacted with the intelligence oversight 
committees since the mid-eighties in several capacities. If confirmed, 
I would seek to forge a close partnership with the oversight 
committees.
    Moreover, I would observe that the Congress will be hugely 
influential in ensuring the DNI succeeds. The Congressional DNI 
partnership is crucial in all respects, and this is one of the most 
important--keeping Congress fully and currently informed of 
intelligence activities and receiving your feedback, support, and 
oversight. Indeed, it is my conviction that, partly through the 
Congress, the DNI has a great deal of authority already; the challenge 
is how that authority is asserted. I believe my experience in the 
community would serve me, and the position, well.
    Finally, the men and women of the Intelligence Community are 
courageous, smart and patriotic; if confirmed, it would be my honor to 
lead them in support of our nation's security. Thank you and I look 
forward to your questions.

    Chairman Feinstein. Well, that is up to you, General. If 
you would like to, proceed; otherwise we can take that up in 
questions. It's up to you.
    General Clapper. Well, we have Members here waiting to ask 
questions, so I would suggest we go ahead with that, and then 
perhaps I'll get to these points, or if not later, I will get 
to them subsequently.
    Chairman Feinstein. All right. We will begin with 10-minute 
rounds, and we will proceed in order of seniority and we will 
alternate sides. I hope that's acceptable.
    General Clapper, as I mentioned in my opening statement, I 
believe that the DNI must be able to be a strong leader as well 
as a coordinator. In the Oxford Handbook of National Security 
Intelligence from February 2010, you wrote, ``I no longer 
believe as strongly as I once did in greater centralization of 
intelligence activity or authority, and I realize that the 
individual needs of each department for tailored intelligence 
outweighs the benefits of more centralized management and 
control.''
    Secondly, in answer to the committee's initial 
questionnaire, you wrote that the responsibilities of the DNI 
entail ``supervision and oversight,'' which to me seems weaker 
than ``direction and control.''
    Here's the question: If you were confirmed as DNI, in what 
way specifically will you be the leader of the IC as opposed to 
simply a coordinator of the 16 agencies that make up its parts? 
And can you give specific examples of where you see more 
forceful leadership is necessary?
    General Clapper. Well, Madam Chairman, I think first that 
with all of the discussion about the lack of authority or the 
perceived weaknesses of the Office of the Director of National 
Intelligence, I believe it already does have considerable 
authority, either explicit in the law, the IRTPA, or implicit, 
that can be exerted. It's my belief that the issue, perhaps, in 
the past has been the art form by which that authority has been 
asserted.
    And it would be my intent to push the envelope, to use your 
phrase, on where those authorities can be broadened. And I 
refer specifically to programming and financial management, 
since that's the common denominator in this town, as one area 
where, having been a program manager twice in the national 
intelligence program as well as the program executive for the 
military intelligence program, I think I know how those systems 
work and how that can be leveraged.
    When I speak of centralization, I don't think that 
everything has to be managed and run from the immediate 
confines of the office of the Director of National 
Intelligence. I think Director of National Intelligence 
authorities can be extended by deputizing or delegating, if you 
will, to various parts of the community things that can be done 
on the DNI's behalf but which do not have to be done within the 
confines of the DNI staff. So I would want to clarify that.
    I would not have agreed to take this position on if I were 
going to be a titular figurehead or a hood ornament. I believe 
that the position of Director of National Intelligence is 
necessary, and, whether it's the construct we have now or the 
Director of Central Intelligence in the old construct, there 
needs to be a clear, defined, identifiable leader of the 
intelligence community to exert direction and control over the 
entirety of that community, given its diversity and its 
heterogeneity, if you will, the 16 components that you 
mentioned.
    Chairman Feinstein. Given our present budget problems, this 
growth of the entire community, which has doubled in budget 
size since 9/11, is unlikely to continue. We've all had 
occasion to discuss this with recent heads of individual 
departments. It's my belief that everybody is well aware of 
that. In fact, the budget may actually end up being decreased 
in coming years.
    So here's the question: Has this growth, in your view, as 
you've participated at least at DIA and other areas, been 
managed correctly? Are there areas where you believe work 
remains to be done to consolidate and better manage prior 
growth?
    General Clapper. Madam Chairman, I think, with particularly 
the publication of the two articles in the Dana Priest series, 
that it would seem to me that some history might be a useful 
perspective. And I go back to when I served as Director of DIA 
in the immediate aftermath of the Cold War where we were under 
a congressional mandate to--the entire intelligence community 
was--under a mandate to reduce the community by on the order of 
20 percent. And put another way, that meant that one out of 
every five employees that we then had on the rolls had to be 
removed from those rolls.
    The process started before I left active duty in 1995 and 
continued through the 1990s. I left the government, was away 
for six years, came back to then NIMA, later NGA, took over 
there two days after 9/11. And that downward profile was then 
in progress. And we were constricting facilities, fewer people, 
then 9/11 occurred. We put the brakes on, screech, and then we 
had to rejuvenate and re-expand the intelligence community.
    And of course, the obvious way to do that, to do it 
quickly, was through contractors. That certainly happened in my 
case when I was director of NGA for five years in the immediate 
aftermath of 9/11.
    And so I think the questions that are raised in the article 
that you point out about the profligate growth of contractors 
and attendant facilities and all this sort of thing is, in my 
view, part of a historical pattern here, a pendulum that is 
going to swing back and we are going to be faced, I think, with 
a somewhat analogous situation as we faced after the fall of 
the Wall when the charge was to reap the peace dividend and 
reduce the size of the intelligence community.
    With the gusher, to use Secretary Gates's very apt term, of 
funding that has accrued particularly from supplemental or 
overseas contingency operations funding, which, of course, is 
one year at a time, it is very difficult to hire government 
employees one year at a time. So the obvious outlet for that 
has been the growth of contractors.
    Now, if you go back even further in history, at least in my 
mind, you think back to World War II where we had the arsenal 
of democracy, which turned out ships and planes and trucks and 
jeeps in unending numbers and that's actually how we won the 
war. In a sense, we're doing somewhat the same thing 
analogously today; it's just a different war. It's much more of 
an information-driven war, where intelligence, instead of being 
as it was in my day, my first tour in Vietnam in 1965, where 
intelligence was a historical irritant, it now drives 
everything.
    So it's not surprising, in my view, that intelligence is so 
prominent and that we have so many contractors doing so many 
things. I think the article today is in some ways testimony to 
the ingenuity, innovation and capability of our contractor 
base. That's not to say that it's all efficient; it isn't. 
There's more work that needs to be done there. I think this is 
a great area to work with the oversight committees.
    What is lacking here are some standards. Should there be 
limits on the amount of revenue that would accrue to 
contractors? Should there be limits on the number of full-time 
equivalent contractors who are embedded in the intelligence 
community? And I think those are issues that I would propose we 
work together on if I'm confirmed as the DNI. And I would 
start, frankly, with the Office of the DNI, which in my 
sensing, at least, I think has got a lot of contractors and we 
ought to look hard at whether that's appropriate or not.
    With respect to the buildings that have accrued, most of 
the buildings that--and NGA is a case in point, a $2.1 billion 
facility that will go in at Springfield, Virginia, at the 
former engineering proving ground at Fort Belvoir. I was very 
instrumental in that and that, of course, came about because of 
the BRAC, the base relocation and consolidation round that 
occurred in 2005.
    So the NGA facility, the consolidation of the central 
adjudication facilities at Fort Meade, the consolidation and 
then the co-location of the counterintelligence facilities at 
Quantico, at DISA, going to the Defense Information Support 
Agency at Fort Meade, all came about because of the BRAC 
rounds.
    In the case of NGA, what the business case was, we got out 
of leased facilities which over time cost more than a 
government-owned facility, not to mention the quality of life 
working conditions that will demonstrably improve for NGA.
    Chairman Feinstein. One last quick question. It's my 
understanding that a contractor costs virtually double what a 
government employee does and has cost that. We have set as a 
mark 10 percent reduction a year. I don't know that that's 
quite achievable. I know the CIA has tried to do 5 percent.
    What is your view on this as to what would be a practical 
and achievable number to aim for the reduction of contractors, 
assuming they're 28 percent to 30 percent of the entire 
workforce today?
    General Clapper. Well, ma'am, I think that we need to try 
to come up with some organizing principles about where the 
contractors are appropriate and where they are not, since there 
are wide variances in terms of the percentages and prevalence 
of contractors in various parts of the community. In the case 
of the military services, with the exception of perhaps right 
now of the Army, which I think is understandable, it's a fairly 
low percentage of contractors that are working in intelligence. 
In the case of the intelligence agencies, the percentage is 
higher and, of course, one agency in particular, the NRO, which 
has classically, traditionally been heavily reliant on 
contractors, not only for acquisition, but for operations.
    So I think I'd want to try to come up with some organizing 
principles, some standards that would determine--some formulas, 
if you will, that would determine where contractors are 
appropriate and where they are not rather than just keying on a 
fixed percentage, which could, in some cases, be damaging or 
not.
    So I certainly agree with, again, it's time for that 
pendulum to swing back as it has historically. I'm just 
reluctant to commit to a fixed percentage because I'd want to 
see what the impact was in individual cases.
    Chairman Feinstein. Well, we will ask you for that 
assessment as soon as you're confirmed.
    Mr. Vice Chairman.
    Vice Chairman Bond. Thank you, Madam Chair.
    General, let me pose a hypothetical that has some base in 
reality. Let's pretend you are the DNI and you worked for years 
with the oversight committees to produce an intelligence 
authorization text. It's safe to say the administration's OMB 
director writes to the committees saying the President will 
sign the text, and let's pretend that an Under Secretary of 
Defense, Intelligence--in a sense, it would be your successor--
sends a discussion draft to the majority staff of the Armed 
Services Committee alerting them to provisions in the text that 
need modification because they conflict with longstanding 
authorities of the Secretary of Defense.
    Let's also pretend that you did not clear this, the Under 
Secretary did not clear it with you, the DNI, or the 
intelligence oversight committees.
    How would you view this action of your dual-hatted Under 
Secretary of Defense, Intelligence? And how would you view his 
meddling in this operation? And how do you think you as the DNI 
would react to the USD/I doing this?
    General Clapper. Well, I probably would have chastised him 
for not having provided a copy of the staff paper that was 
exchanged in response to requests from the House Armed Services 
Committee staff. And in retrospect, it would have been better 
had I seen to it that a copy of that went to the two respective 
intelligence committees. That happened anyway at the speed of 
light without my taking any action, but that would probably 
have been the more appropriate course.
    I have been for the last three years the Under Secretary of 
Defense for Intelligence and I considered it my responsibility 
and my obligation to defend and protect the Secretary's 
authorities and prerogatives to the maximum extent I could. If 
I were confirmed as the DNI, I will be equally assiduous in 
ensuring that the DNI's prerogatives and authorities are 
protected and advanced.
    Vice Chairman Bond. Well, we would hope so. Now, in our 
discussion--we had a good discussion last week--I believe you 
said that the Senate Intelligence Committee should have 
jurisdiction over the Military Intelligence Program budget, 
which is currently under the jurisdiction of the Armed Services 
Committee.
    Would could you clarify that for me? Do I understand that 
correctly?
    General Clapper. Well, I'm probably risking getting in 
trouble with the Senate Armed Services Committee, who 
apparently likes me now, so----
    Vice Chairman Bond. You used up a chit or two there.
    Senator Levin. I'd continue to worry if I were you, General 
Clapper.
    [Laughter.]
    General Clapper. It would be better, frankly, and I guess I 
don't want to get into jurisdictional gun battles here between 
and among committees, but from my viewpoint, having done this 
in several incumbencies, it would be better if the oversight 
were symmetrical. In the House, the House Intelligence 
Committee does have jurisdiction over the Military Intelligence 
Program, and it's a different situation here in the Senate. And 
I will leave that----
    Vice Chairman Bond. That's very clear and I appreciate 
that, and you have, as anyone around here knows, entered into 
the most deadly minefield in Washington, D.C.
    General Clapper [continuing]. Yes, sir.
    Vice Chairman Bond. So step carefully, but we appreciate 
you taking that step.
    A very important question about habeas. A number of habeas 
decisions have resulted in release of Guantanamo Bay detainees, 
government-conceded in some cases; in others, the government 
argued against the release and recently the government won a 
case on appeal.
    We know the recidivism rate for Gitmo detainees is now 
above 20 percent. Do you agree with the public statement of the 
national security staffer who said that a 20 percent recidivism 
rate with terrorists isn't that bad?
    General Clapper. He was comparing it, I believe, to what 
the recidivism rate is here in the United States. I think in 
this case a recidivism rate of zero would be a lot better. That 
would be a great concern. I think it is incumbent on the 
intelligence community institutionally to make the soundest, 
most persuasive, authoritative and accurate case possible when 
these cases are addressed, when decisions are being made to 
send people back to host countries.
    A particular case in point in Yemen, as we discussed in 
February at a closed hearing when Steve Kappes and I appeared 
before you, that's something you have to watch very carefully 
in Yemen because their ability to monitor and then rehabilitate 
anyone is problematic at best. And these decisions were made, 
as we also discussed, sir, this is an interagency thing, a 
process in which intelligence is an important but not the only 
input to that decision.
    Vice Chairman Bond. Would you agree that the committee 
should be given the intelligence assessments on Guantanamo Bay 
detainees which we have not fully received yet?
    General Clapper. As far as I'm concerned, yes, sir, you 
should have that information.
    Vice Chairman Bond. I have some concerns, and I would like 
your views on having the DNI sit in a policymaking role for the 
purposes of voting on the disposition of Guantanamo detainees. 
Is that over the line of intelligence gathering and getting 
into a policy area?
    General Clapper. I don't know the exact mechanics of how 
those meetings work, but I would say as a general rule I don't 
believe intelligence should be in a ``policymaking'' role. I 
think intelligence should support policy. It should provide the 
range of options for policymakers, but I do not believe 
intelligence--other than for intelligence policy, but not 
broader policy--should be involved.
    Vice Chairman Bond. But I assume you would not hesitate if 
the intelligence agencies' conclusions point to a different 
direction than the ultimate policy decision, that you would 
share your honest assessments with the oversight committee in 
our confidential deliberations.
    General Clapper. Yes, sir, I would.
    Vice Chairman Bond. All right. One of the questions we have 
is whether there should be a statutory framework for handling 
terrorists' habeas corpus challenges, a redefinition under the 
new circumstances of the law of the war, because we are in a 
different kind of battle than we have been. Do you think we 
need a new law on habeas with terrorists who don't belong to 
any nation's army?
    General Clapper. Sir, that's one I think I would need to 
take under advisement. It's kind of a legal issue, a little out 
of my domain. Off the top of my head, I'm not sure I can answer 
that.
    Vice Chairman Bond. If you're confirmed, we would ask that 
you work with your legal counsel and with us to see if 
something is appropriate, if you would have any 
recommendations.
    In your meeting with me last week you said that the 
Department of Justice, in my words, meddling in our 
intelligence agencies was not an acute problem. I respectfully 
disagree.
    The DOJ prevented IC agencies from complying with their 
statutory responsibility to share intelligence with the 
committee on the Times Square attack, and the DOJ did not defer 
to the IC in decisions about whether to Mirandize terrorists. I 
think those are acute.
    If you are confirmed, what input do you expect to have over 
the decision whether or not to Mirandize a terror suspect?
    General Clapper. Well, we hope to be consulted and in the 
decisionmaking process if such a situation arose.
    Vice Chairman Bond. Have you ever had an opportunity to 
discuss these issues with the Attorney General?
    General Clapper. I have not.
    Vice Chairman Bond. What do you think ought to take 
precedence--making sure defendants' statements can be used in 
court, or obtaining needed intelligence to thwart future 
attacks?
    General Clapper. Well, obviously my interest, or the 
interests of intelligence institutionally, is in gaining 
information. How the detainee is treated legally, that's 
another decision that I don't make, but my interest is in 
procuring the information.
    There is some commonality here between a straight 
intelligence interrogation, say done by the military or agency, 
versus interrogations done by the FBI, in that in both cases 
the interrogator is trying to achieve or develop rapport with 
the detainee or the person being interrogated. That is a major 
factor for the FBI, for example, when they are interrogating, 
even in preparation for Mirandizing somebody. So again, I think 
the interest of intelligence is in gaining the information.
    Vice Chairman Bond. Do you believe there are legitimate 
reasons for Department of Justice instructing entities within 
the DOJ or elsewhere in the intelligence community not to share 
intelligence information otherwise under the jurisdiction of 
this oversight committee?
    General Clapper. Sir, I'm not sure I understand the 
question. I'm sorry.
    Vice Chairman Bond. Are there situations, do you see any 
situations in which the Department of Justice can or should say 
to an intelligence entity, or even to the FBI, don't share that 
intelligence with the intelligence committee?
    General Clapper. I can't think of a situation like that, or 
something I wouldn't be very supportive if that were the case.
    Vice Chairman Bond. I can't either. Thank you very much.
    Chairman Feinstein. Thank you, Mr. Vice Chairman.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    Mr. Clapper, it is well known that the world of 
counterterrorism and homeland security is a sprawling 
enterprise. Yet yesterday the Washington Post made what I 
believe is a jaw-dropping assertion, and I would like to get 
your comment on it. It is a really extraordinary assertion of 
fact, and they said here, ``No one knows how much money it 
costs, how many people it employs, how many programs exist 
within it, or exactly how many agencies do the same work.''
    Now they made this as an assertion of fact. Do you agree 
with that?
    General Clapper. Well, no, sir, I really don't. The 
statement implies that this is completely out of control, and I 
believe that it is under control because in the end the common 
denominator for all this is the money that is appropriated, 
whether it's intelligence or for other purposes. The money is 
appropriated with fairly specific strings attached. There are 
allocations on a program-by-program basis. I know I've been the 
recipient of that.
    And in the end the intelligence community can do many 
things, but printing more money is not one of those things we 
can do. So that does serve, I think, as a means of control over 
the allegedly profligate intelligence activities.
    Senator Wyden. Let's take the various judgments made in 
that assertion. Is it clear how many people are employed?
    General Clapper. We can certainly count up the number of 
government employees that we have, absolutely. Counting 
contractors is a little bit more difficult.
    I was a contractor for six years, after I left, in the 
interval after I left active duty.
    And when you have--I would sign off, depending on which 
company I was working for, I might charge to four or five 
different contracts. So you have different parts of people, if 
you will, so it gets to be a little more difficult to actually 
count up, on a head count, on a day-by-day basis, exactly how 
many contractors may be doing work, all or in part, for a 
contract in intelligence.
    Senator Wyden. I have to cover a lot of ground here. So the 
answer to that is, it's not clear how many people are employed.
    Is it clear how many agencies do the same work?
    General Clapper. Well, again, this is a determination that 
Dana Priest made, that agencies----
    Senator Wyden. I'm asking for your----
    General Clapper [continuing]. I don't believe that, sir. I 
don't believe, as a general commentary. There are cases, as 
there have been in the history of intelligence, where there has 
been a conscious decision to have some duplication. One man's 
duplication is another man's competitive analysis. So there is 
a certain amount of that that does go on, which I do think is a 
healthy check and balance.
    That's not to say, sir, and I would not assert that this is 
completely efficient and that there isn't waste. There is. And, 
you know, the community does work to try to eliminate that.
    Senator Wyden [continuing]. Let me ask you about another 
important area to me, and that's the relationship between the 
director and the Central Intelligence Agency.
    And let me use a hypothetical--a short one--to get your 
assessment of how you'd deal with it. Supposing a particular 
foreign government has solid intelligence on al Qaeda but has 
refused to share it with the United States. You've dealt with 
the government before, and in your professional judgment, the 
best way to get the cooperation is to fly there, confront them 
directly, insist that they share the information.
    And let's suppose, just for purposes of this hypothetical, 
the CIA disagrees with your judgment: They would say, ``No, 
Clapper, that's not the way to do it. The best way to get the 
foreign government's cooperation is to be patient and wait six 
months before asking for the information.'' What would you do, 
so that we can get some sense of how you would see your job 
interacting with the CIA?
    General Clapper. If I felt, for whatever reason, that the 
only way to secure that information would be for me personally 
to engage with that foreign government, I would do so. I would 
certainly, though, consult and discuss that with the director 
of the CIA.
    Senator Wyden. But ultimately do you believe that you would 
have the authority to overrule the CIA director?
    General Clapper. I do.
    Senator Wyden. The third area I want to ask you about, Mr. 
Clapper, involves the contractor issue. We've talked about it 
in a variety of ways.
    One of the areas that I have been most concerned about is 
that I think that this is a real magnet for conflicts of 
interest. Often you've got a situation where one of the biggest 
potential sources of conflicts is when you have expertise on a 
particular topic residing mostly in the contractor base rather 
than the government workforce, and you get into a situation 
where the contractors are being asked to evaluate the merits of 
programs that they're getting paid to run.
    I'd like your judgment as to whether you think this is a 
serious problem, and if so, what would you do about it?
    General Clapper. It is a problem, sir, that you have to be 
on guard for.
    When I served as director of NGA for almost five years, 
half the labor force at the time, of NGA, was contractors. And 
you do have to safeguard against--you have to have a mechanism 
for watch-dogging that to prevent this conflict of interest, 
where you have contractors who can gain an unfair advantage, in 
terms of competing for more work and this sort of thing. So you 
must be on the look-out for it. I don't think it is a 
widespread thing, but it does happen and you must have the 
management mechanisms in place to ensure that doesn't happen.
    And to me, that's the crux here on contractors and their 
management, is the maintenance of a cadre of government 
employees who do have the expertise to assess and evaluate the 
performance of the contractor. And when you're in a situation 
where the contractor has a monopoly of knowledge and you don't 
have a check and balance in your own government workforce, 
you've got a problem.
    Senator Wyden. I think you're going to find that it is a 
more widespread problem than you see today. But I appreciate 
the fact that you've indicated that you understand that there 
are conflicts there, and you want to be watchful for it.
    The last area I want to get into is the question of 
declassification abuse. And it just seems to me that so often 
the classification process, which is supposed to protect 
national security, really ends up being designed to protect 
political security, and you and I have talked about this on the 
phone.
    And I would just like to get your assessment about how you 
would weigh the protection of sources and methods with the 
public's right to know. Because as far as I can tell, there 
really isn't a well-understood process for dealing with this. 
And in the absence of well-understood process the political 
security chromosome kicks in--and everything is just classified 
as out of reach of the public and the public's right to know is 
flouted.
    So how would you go about trying to strike that balance?
    General Clapper. Well, first, I agree with you, sir, that 
we do overclassify. My observations are that this is more due 
to just the default--it's the easy thing to do--rather than 
some nefarious motivation to, you know, hide or protect things 
for political reasons. That does happen too, but I think it's 
more of an administrative default or automaticity to it.
    And in the end it is the protection of sources and methods 
that always underlie the ostensible debate about whether to 
declassify or not. Having been involved in this, I will tell 
you my general philosophy is that we can be a lot more liberal, 
I think, about declassifying, and we should be.
    There is an executive order that we are in the process--we, 
the community--are in the process of gearing up on how to 
respond to this, because this is going to be a more 
systematized process, and a lot more discipline to it, which is 
going to also require some resources to pay attention to to 
attend to the responsibilities we have for declassification.
    Senator Wyden. Would you be the person--and this is what 
I'm driving at--who we can hold accountable? Because I think in 
the past there has been this sense, on classification issues, 
it's the President's responsibility. Then you try to run down 
who at the White House is in charge.
    I want to know that there is somebody who's going to 
actually be responsible. I appreciate your assessment that----
    General Clapper. If it is for intelligence. Now, 
classification----
    Senator Wyden [continuing]. On intelligence issues.
    General Clapper [continuing]. Yeah, exactly, because it's 
broader than just intelligence. But certainly if it's 
intelligence, yes, I believe ultimately the DNI, if I'm 
confirmed, is the guy in charge.
    Senator Wyden. Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator Wyden.
    Senator Hatch.
    Senator Hatch. Well, thank you, Madam Chairman.
    General Clapper, I want to thank you for your long years of 
service to this country. You have really an impressive 
experience in the intelligence world, experience that I think 
you can draw on to help you in this job, and I think there's no 
question that we're grateful that you're willing to serve 
again.
    Now, I appreciated your courtesy call last week. When I 
asked my first question, why you could possibly want this job, 
you responded, two points: First, you said I was not the first 
to ask that; and second, you said you were taking the job out 
of a sense of duty. So I personally appreciate it.
    Another thing I believe you told me in our meeting was that 
you had no intention of shaking up the DNI structure, that you 
intended to make it work as it is. Recognizing the weak 
authorities and large responsibility of your office, you told 
me that the DNI can enhance its authority if it has the support 
of the oversight committee, and you're certainly right about 
that.
    And to have our support, you're going to have to spend a 
lot of time here sharing with us your problems and propose 
solutions. Chairman Feinstein initiated a series of meetings 
with your predecessor, and I was always grateful for that 
participation. I know Vice Chairman Bond would agree with me 
that one of the reasons we managed to pass the FISA Amendments 
Act--a politically prickly piece of legislation--was because of 
the long hours that then-DNI McConnell had dedicated to the 
passage of it. Now, you're only the fourth DNI, but there are 
lessons that I know that you have learned from your 
predecessors, and I appreciate it.
    Now, reform and transformation has as much to do with new 
ways of thinking as it does with new boxes in an organization 
chart. Congress is good at legislating new boxes, but it's much 
harder to legislate cultural change within organizations.
    We've seen that new ways of thinking about threats, 
capabilities, doctrine and training are hard to adapt in well-
established bureaucratic cultures. You need leadership at the 
IC to do this, and that of course means you. Do you believe 
that organizational culture is important in the IC? And how do 
you define intelligence culture? And along with that, do you 
believe that cultural change is important? And how would you 
address that?
    General Clapper. Great question, sir. If I may sir, clarify 
something that I may not have made myself clear on before----
    [Pause.]
    Chairman Feinstein. There we go.
    General Clapper [continuing]. First of all, Senator Hatch, 
I probably should clarify, if I didn't make clear when I said 
that no intent to shake up the DNI, that actually I do have 
that intent.
    What I meant to say or to clarify that remark is that I 
don't--I am in the mode of making the model we have work rather 
than going through the trauma of yet another reorganization, 
whether it's to some other structure. And I believe that the 
model that we have, with all its flaws and the legal 
ambiguities in the IRTPA can be made to work. And that's 
certainly my intent, and I wouldn't have taken this on at my 
age and station in life if I didn't think that were the case.
    Senator Hatch. Well, that's the way I took it, anyway.
    General Clapper. A very important point--and Senator Bond 
alluded to this in his opening remarks; I'd like to get back to 
that--is that--and I have said this to the President, and we 
spoke again about it this morning--is the fact that the manner 
in which the DNI relates to the oversight committees, the 
manner in which the DNI relates to the President are very 
important. And both the optic and the substance of those 
relationships can do a great deal to compensate for the 
ambiguities of the law and the perceived weaknesses of the 
position.
    That's why I'm so intent on forging a partnership 
relationship with the oversight committees, because you play a 
huge role. You play a huge role in compensating for those 
ambiguities. And so it would be incumbent upon me as the DNI, 
if I'm confirmed, or anyone else who serves in that capacity to 
ensure there is that constructive partnership relationship with 
the oversight committees. So I do want to make that point 
clear.
    The President again assured me--and I asked him 
specifically--about his support for the position as the leader 
of the intelligence community. And he affirmed that when we 
spoke this morning on the phone.
    Cultural change, I have some experience with that, 
particularly at NGA. I was brought on specifically to implement 
the mandates that the NIMA commission, a commission which did 
great work, mandated by the Congress, on reorienting and 
refocusing and bringing the vision to life of what the original 
founding fathers and mothers of NIMA had in mind.
    And so I learned a great deal the hard way about how to 
forge cultural change in a large bureaucratic institution in 
intelligence, which is the case with NGA. And I'm very proud of 
the way NGA has evolved and how it has turned out as an agency. 
And I think it's moving to the new campus here in another year 
or so will further bring that cultural change about.
    There is, indeed, a unique culture in the intelligence 
community, and there are in fact subcultures very much built 
around the tradecraft that each of the so-called ``stovepipes'' 
foster.
    And that term is often used pejoratively, whether it's the 
SIGINT stovepipe or the GEOINT stovepipe or the HUMIN 
stovepipe. Well, that's also the source of the tradecraft which 
allows us to conduct those very important endeavors. The trick, 
of course, is to bring them together and to synchronize them, 
mesh them, and to bring together the complementary attributes 
that each one of those skill sets bring to bear.
    So there is an important dimension. And you're quite right. 
It's one thing to enact laws, draw wiring diagrams, but the 
cultural aspects, I think, are quite important. And that's 
where I think leadership is huge, and that's something that you 
cannot legislate.
    Senator Hatch. Well, that's great. Have you read the July 
2004 report by this committee cataloging and analyzing the Iraq 
WMD intelligence prior to 2002? Did you have a chance to read 
that?
    General Clapper. Yes, sir. I'm very familiar with that, and 
I'm also very familiar with the WMD National Intelligence 
Estimate. My fingerprints were on it. I was then a member of 
the National Intelligence Board, so I'm very familiar with what 
were the flaws in that NIE. I believe there have been 
substantial process improvements to preclude, hopefully, such 
an event from occurring again.
    But I will tell you that was an indelible experience for me 
in how we did the country a great disservice with that National 
Intelligence Estimate.
    Senator Hatch. What do you believe explains the failure of 
the intelligence community in assessing the presence of WMD in 
Iraq in 2002? And do you believe the lessons from these 
failures have been learned inside the intelligence community? 
And if you do, why do you believe that?
    General Clapper. Well, sir, I think that had a profound 
impact on the intelligence community at large. I think we have 
learned from that. The whole process used with the NIEs today 
is quite different. These were actually improvements that 
started under George Tenet's time when he was still the DCI, 
and they've continued to this day.
    And so I think one of the first things we do, which we 
didn't do with that NIE, was that the standard practice when 
you meet to approve an NIE is to first assess the sources that 
were used in the NIE, which was not done in the case of the 
infamous 2002 WMD report.
    The use of red-teaming; the use of outside readers, with 
their input included in the NIE; the use of other options; what 
if we're wrong; confidence levels; the degree of collection 
capability gaps or not--all of those features are now a 
standard part of national intelligence estimates drawn 
primarily from the egregious experience that we had with that 
particular NIE.
    And I thought the report you did laid out exactly what went 
wrong. I can attest, since I was there, it was not because of 
politicization or any political pressure. It was because of 
ineptness.
    Senator Hatch. Well, thank you.
    And now, General Clapper, the administration and the 
previous one made great efforts to explicitly state that our 
response to global terrorism was not against Islam. In my 
opinion, the fact that the vast majority of adherents to Islam 
are nonviolent would certainly underscore that point.
    Now, do you believe that ideas and ideology have a role in 
motivating violent extremist terrorism? And, if so, do you 
believe that we have adequately analyzed the ideological 
component? And one last thought, do you believe that closing 
down Guantanamo would undermine terrorist ideology in any way. 
And if so, why?
    General Clapper. Well----
    Senator Hatch. That's a lot of questions, I know.
    General Clapper [continuing]. On the first issue of the 
ideological dimension here, I think that's a very important 
one. My experience there most recently was my involvement in 
the aftermath of the Fort Hood shootings. And the question that 
has certainly been a challenge, a huge challenge, for the 
Department of Defense is the discernment of self-
radicalization, when people take on an ideology, internalize it 
and use that for radical purposes.
    And I will tell you, sir, in my view, we have a challenge 
there in how to discern that, how to explain that to others, 
particularly a 19- or 20-year-old soldier, sailor, airman or 
Marine. How do you discern if before your very eyes someone is 
self-radicalizing, and then what do you do about it.
    I think with respect to the second question on a closure of 
Gitmo, I think that will--when we get to that point, I think 
that probably would help the image of the United States, if in 
fact we're able to close it.
    Senator Hatch. Okay. I think my time is up.
    Chairman Feinstein. Thank you very much, Senator Hatch.
    Senator Mikulski.
    Senator Mikulski. Madam Chairwoman, first of all, I want 
you to know, I've really enjoyed listening to the questions 
raised by you and the Ranking and the other members. Once 
again, we're learning from each other.
    Senator Feinstein, I would just like to suggest to you, 
with the presence of Senator Levin--presuming you're in charge 
in November, but whoever is--that the first area of reform has 
to be with Congress. My concern is that DNI, whoever he is--and 
I hope it's General Clapper--appears before so many committees 
and so many subcommittees--I think by my count, it's over 88 
different committees and subcommittees between the House and 
the Senate--that the oversight--that's one thing.
    And the other, that we really press for the reform of the 
9/11 Commission that we establish the Intelligence 
Appropriations Subcommittee. I think Mr. Clapper makes a great 
point, that it does come in appropriations. I have it in the 
FBI; Inouye has DOD. It's not the subject of this conversation 
here, but I think we need to just get together among ourselves 
and discuss how reform starts with us, meaning the Senate and 
the House.
    Chairman Feinstein. If I might respond, with respect to the 
Appropriations Committee, the three of us that serve on it--
yourself, Senator, Senator Bond and myself--we have all 
supported that. The problem is, we're only three out of a 
couple dozen members, and it's those couple dozen members that 
need to be convinced.
    Senator Mikulski. Well, I think they will be.
    But, picking up, General Clapper, Dana Priest has done her 
series, and I believe that once again she's done a great 
service to the nation. It was Ms. Priest who brought to the 
public's attention the terrible stuff going on at Walter Reed. 
Secretary Gates and the President responded, and we dealt with 
it. I'm not saying there is a scandal within the intelligence 
community, but it has grown.
    And my question to you, if confirmed, will you look at the 
series in the Post and others that have raised similar ones, 
for a review of the allegations, flashing yellow lights, about 
the growth and duplication, et cetera, and make recommendations 
to the executive and legislative branch for reform?
    General Clapper. Yes, ma'am.
    Senator Mikulski. Well, and thank you, because I think it 
would give us an important guidepost.
    The second is, I'd like to go to the issue of 
cybersecurity. As you know, you and I have worked on signals 
intelligence, but cybersecurity is a--we're part of a task 
force chaired by Senator Whitehouse, Senator Snowe, and myself. 
And we've looked at four issues--governance, technology, 
technology development, maintaining our qualitative edge in 
that area, workforce, and the beginning of civil liberties and 
privacy.
    Governance has befuddled us. Governance has befuddled us. 
We know how to maintain our technological qualitative edge. 
We're making progress on how to have an adequate workforce. But 
what we see is overlapped turf warfare, turf confusion. And I 
wonder, as DNI, what role do you have, and what role will you 
assume in really straightening out this governance issue?
    Congress has the propensity to create czars. We've got 
czars and we've got czars by proxy. You know, a czar--we have a 
White House now on cyber, a very talented and dedicated man. We 
have you as the DNI; you're a czar by proxy. But we don't give 
those czars or czars by proxy any power or authority. Now, we 
get into cybersecurity, and I think the governance structure is 
mush. There's no way for clarity, there's no answer to who's in 
charge, and there's no method for deconflicting disagreements 
or turf warfare. Do you have a comment on what I just said.
    General Clapper. Well, first, I think I'll start with, the 
commentary about NSA--I know an organization near and dear to 
your heart. NSA must serve, I believe, as the nation's center 
of excellence from a technical standpoint on cyber matters. I 
think the challenge has been how to parlay that capability, the 
tremendous technical competence that exists at NSA, in serving 
the broader issue here of support, particularly to supporting 
the civilian infrastructure.
    The Department of Defense's response has been to establish 
Cyber Command by dual-hatting the Director of NSA, General 
Keith Alexander, as the commander. So in a warfighting context 
in the Department of Defense, that's how we organize to do 
that.
    I think we need something to fill that void on the 
civilian--if you will--the civil side. Now, there's some 35 
pieces of--there are legislative proposals, as I understand it, 
throughout the Congress right now. I think the administration 
is trying to figure out what would be the best order of march 
or combination.
    I think, though, the bill that Senator Bond and Senator 
Hatch have sponsored, without speaking specifically, but it 
certainly gets to what I would consider some sound organizing 
principles and having somebody in charge, having a budget 
aggregation that----
    Senator Mikulski. But what will your role be in this, as 
DNI?
    General Clapper [continuing]. Well, I think the role of the 
DNI is to ensure that the intelligence support for cyber 
protection is provided and that it is visible to the governance 
structure, whatever that turns out to be. I do not believe it 
is the DNI's province to decide what that governance structure 
should be, but rather to ensure that it gets sufficient and 
adequate and timely intelligence support.
    Senator Mikulski. But what advisory role do you play to the 
President? There's Howard Schmidt, a great guy. We've met with 
him and so on, but he has no power. So we have what has been 
stood up with the United States military--excellent. I think we 
all recognize that. But when it gets to the Department of 
Homeland Security, when it gets to the FBI, when it gets to the 
civilian agencies, and also it gets--what gateways do the 
private sector have to go to who to solve their problems or to 
protect them, it really gets foggy.
    General Clapper. Well, one solution, I believe, is in the 
legislation that has been proposed by Senators Bond and Hatch 
on this committee.
    Senator Mikulski. I'm not asking for your comment on 
legislative recommendations. I'm asking what is the role of the 
DNI to help formulate, finally, within the next couple of 
months, the answer to the question, who is in charge? What is 
your role? Who do you think makes that decision? I presume 
you're going to say the President.
    General Clapper. Well, I guess----
    Senator Mikulski. How is the President going to get to 
that? Is he going to be having, you know, coffee with Brennan? 
Is it going to be you? Is it Howard Schmidt? Is it what?
    General Clapper [continuing]. I do not believe it is the 
DNI who would make the ultimate decision on the defense for 
cyber--and particularly in the civil sector. I don't believe 
that is a determination or decision that should be made by the 
DNI. I think I should play a role there.
    Senator Mikulski. Again, what role do you think you should 
play, with whom?
    General Clapper. For the provision of adequate intelligence 
support, what is the threat posed in the cyber domain, to this 
nation. And I think that is the oversight responsibility of the 
DNI, to ensure that that is adequate.
    Senator Mikulski. I think maybe we've got a little--well, 
then let's go to the role of the DNI with the civilian 
agencies, the FBI and the Department of Homeland Security. What 
authority do you have in those domains?
    General Clapper. Well----
    Senator Mikulski. And bringing them in more, now, 
particularly the FBI, which has, I think, done a great job. In 
fact, I think it's all been great, because here it is 2010, 
July 20th, and there's not been an attack on the homeland.
    General Clapper [continuing]. I think the FBI has done 
great work, and I spent some time with them in the last week or 
two. And I think the transformation that they are effecting to 
become an effective part of the intelligence community has been 
actually very--is very impressive. I think they have a rigorous 
management process to ensure that this takes place at the 
field.
    They too have a cultural challenge that we spoke of earlier 
in the preeminence of the law enforcement culture in the FBI, 
which is still important, and how they bring along their 
intelligence arm and their intelligence capabilities to match 
that in terms of its prestige and stature within the FBI; that 
is a work in progress, and they acknowledge that. But I think 
they've made great headway.
    And I think the conversations that I've had with Director 
Mueller, who's been marvelous and very supportive of making the 
DNI function work. The FBI is one of the elephants in the 
intelligence living room, if I can use that metaphor. It has a 
huge responsibility and a huge contribution to make, and I 
intend to work with the FBI closely if I'm confirmed.
    Senator Mikulski. Very good.
    Madam Chair, I think my time is up.
    Chairman Feinstein. Thank you very much, Senator Mikulski.
    Senator Snowe.
    Senator Snowe. Thank you, Madam Chair, and welcome, General 
Clapper.
    You certainly bring an illustrious career and 
qualifications to bear on this particular position, and it 
certainly comes at a critical juncture, once again, for this 
position and for this office that we continue to struggle with 
in terms of its definition and the type of leadership that 
should be brought to oversee the intelligence community.
    And that's what I'd like to explore with you this afternoon 
first and foremost on an issue that I have been advocating, 
actually, even since before we passed the legislation that 
created the position for which you have been nominated and even 
before the 9/11 commission report, and that was to have a 
community-wide Inspector General. Because I think that one of 
the issues that has evolved from all of this in creating this 
vast department is being able to look across the spectrum
    And one of the things that's developed in all this and the 
number of reports that have been issued by this committee, and 
of course most recently, which was the scathing review of what 
happened on the Christmas Day attempted attack and the systemic 
breakdown both in terms of policy, follow-through, information-
sharing, technology, to name a few, across the agencies. And 
clearly, it is something that I think underscores the serious 
and fundamental problems that we continue to have, and 
obviously we've got an unwieldy bureaucracy before us with this 
department.
    In addition, of course, with The Washington Post series 
that was written by Dana Priest this week, I think it's also a 
manifestation of many of the problems that continue to exist. 
And certainly we've had many definitions of the type of 
leadership that has been brought to bear in this position, 
whether it's an integrator, a coordinator, a facilitator, and 
whether or not we should have a strong acknowledged leader that 
oversees all of these agencies who's going to exert that 
leadership.
    And so I would like to explore with you today in terms of 
whether or not you would support a community-wide Inspector 
General. That is pending in the current legislation between the 
House and Senate. It's in conference at this point. I have 
fought tooth and nail for it in the past because I happen to 
think that it could initiate, conduct investigations and, 
frankly, could produce the types of reports that were put 
forward by The Washington Post this week in illustrating the 
redundancies, the inefficiencies, and also producing, I think, 
the type of information that is sorely lacking because you 
cannot reach across the spectrum across all agencies in terms 
of ascertaining what types of problems have emerged and how you 
solve them. And that's where this Inspector General could come 
in and play a critical role.
    That's what I argued from the outset because I do believe 
it will break down the barriers and stovepipes and the 
parochial concerns and the turf wars that have evolved and 
emerged. I mean, I think that that's indisputable. And so I 
believe that you would find this as a tremendous asset in 
having someone that can conduct an overview and examine those 
issues independently and to give you I think the vantage point 
of seeing the forest through the trees, and many of the issues 
that arose in this Washington Post series and other problems 
that have emerged and certainly in the problems that have been 
identified in the Christmas Day terror bomb plot that was 
identified by this committee in its very extensive analysis 
certainly could have been averted if we had somebody at hand 
who was looking across the spectrum.
    So I would like to have you respond to that, because I 
noticed in your pre-hearing questions you said that you support 
a strong and independent Inspector General and will ensure the 
Inspector General has access to appropriate information and 
cooperation from the Office of DNI personnel. But you limit it 
by virtue of the wording of your statement to imply that the 
access only would be accorded to the 1,500 or so personnel that 
reside within that office, as opposed to all the other agencies 
and most notably the Department of Defense that obviously has 
the preponderance of the personnel and certainly the 
overwhelming majority of the budget.
    General Clapper. Well, Senator Snowe, first of all, I guess 
at some risk, but I would refer to my military background in 
having served as a commander and used IGs. I think they are a 
crucial management tool for a commander or a director. The two 
times I've served, almost nine years as director of two of the 
agencies, DIA and NGA, I considered an IG crucial. So I feel 
similarly about a community-wide IG.
    My only caveat would be to ensure that I use the IG who--
they have limited resources as well--would do systemic issues 
that apply across more than one agency, and using the agency 
IGs or the department IGs, in the case of those that don't have 
large agencies, to focus on agency- or component-specific 
issues. But I think there's great merit in having a 
communitywide Inspector General.
    Senator Snowe. So, in the responses that you submitted to 
the House Armed Services Committee in which you said that a 
community-wide IG would overlay the authority for the IG for 
the entire community over all matters within the DNI's 
responsibility and with similar authority of the DOD and the IG 
of the Armed Services and certain DOD combat support agencies, 
that, obviously, you were suggesting that it would duplicate 
those efforts.
    General Clapper. No. What I'm saying now is that I do think 
there is merit in having an ODNI IG, a community-wide IG, who 
can look across intelligence as an institution for systemic 
weaknesses and problems and identify those.
    All I would try to foster, though, is a complementary 
relationship rather than a competitive one with either agency 
IGs, particularly in the case of DOD, or the DOD IG, which also 
has an intelligence component.
    So I would just try to use--marshal--manage those resources 
judiciously so they're not stepping on one another, but I think 
there is great value in having a community-wide Inspector 
General to address community-wide issues.
    Senator Snowe. Well, I appreciate that because I think that 
that would be critical and a useful tool to ferret out a lot of 
the inefficiencies, anticipate the problems before they 
actually occur, and, obviously, redundancies and the waste.
    Was there anything that surprised you in The Washington 
Post series this week?
    General Clapper. No, ma'am.
    Senator Snowe. No? I mean, they saw the redundancy in 
functions and so on. Do you think----
    General Clapper. I didn't agree with some of that. I think 
there was some breathlessness and shrillness to it that I don't 
subscribe to. I think she's extrapolated from her anecdotal 
experience in interviews with people.
    I must say I'm very concerned about the security 
implications of having--you know, it's great research, but just 
making it easy for adversaries to point out specifically the 
locations of contractors who are working for the government, 
and I wouldn't be surprised, frankly, if that engenders more 
security on the part of the contractors which, of course, the 
cost will be passed on to the government.
    Senator Snowe [continuing]. Well, are you going to evaluate 
this, though, on that basis? I just think it is disturbing to 
think in terms of the number of agencies and organizations of 
more than 1,200, for example. I mean, nothing disturbs you in 
that article from that standpoint?
    General Clapper. Well, it depends on what does she mean by 
an agency. It's like in the Army. You know, an organization can 
be a squad or a division. So, you know, I think she's striven 
for some bit of sensationalism here. That's not to say that 
there aren't inefficiencies and there aren't things we can 
improve.
    Threat finance is a case in point. She cites, I think, some 
51 different organizations that are involved in threat finance. 
That is a very important tool these days in counternarcotics, 
counterterrorism, weapons of mass destruction because it is, in 
the end, the common denominator of how money works and how 
money supports these endeavors. If I'm confirmed, that's one I 
would want to take on with Leslie Ireland, the new Director of 
Intelligence for the Department of Treasury, because it's my 
view that Treasury should be the lead element for threat 
finance. So that's one area I will take to heart.
    But I think the earlier discussion is germane to the number 
of contractors and what contractors are used for, and this 
article certainly brings that to bear.
    Senator Snowe. Well, I just hope that you won't dismiss it 
out of hand.
    General Clapper. No.
    Senator Snowe. Because I always think that it's worthy 
when, having other people who are doing this kind of work at 
least to examine it very carefully, very thoroughly, obviously. 
I mean, I think just given the mega bureaucracy that has been 
developed, we certainly ought to be looking at it, and 
certainly, this committee as well. So I hope that you are going 
to give it that kind of consideration it deserves.
    One other question. On the April paper, the response that 
you gave to House Armed Services Committee and the information 
paper, you mentioned these grants of unilateral authority, 
referring to the Intelligence Authorization Bill, that it was 
expanding the authority to the DNI are inappropriate, 
especially for personnel and acquisition functions. You said 
that some intelligence community efforts could be decentralized 
and delegated to the component.
    I'm just concerned, on one hand, that you would subscribe 
to sort of embracing some of the cultural and territorial 
battles that we're trying to overcome. When you're using words 
such as ``infringe'' or ``decentralize'' to all of the other 
agencies, to have them execute many of those functions, it 
concerns me at a time in which I think that your position 
should be doing more of the centralizing with respect to the 
authorities.
    So I'm just concerned about what type of culture that you 
will inculcate as a leader, if you're suggesting 
decentralizing, infringing upon other agencies' authority at a 
time when, clearly, you should be moving in a different 
direction to break down those territorial barriers.
    General Clapper. I agree with that, but I do not think that 
everything in the entire intelligence community has to be run 
within the confines of the office of the Director of National 
Intelligence. I do think there are many thing that can be 
delegated to components in the intelligence community that can 
be done on behalf of the DNI and with the visibility of the 
DNI, but does not have to be directly executed by the DNI at 
its headquarters staff, which I believe is too large.
    Senator Snowe. Thank you.
    Chairman Feinstein. Thank you very much, Senator Snowe.
    Senator Whitehouse, you're next.
    Senator Whitehouse. I yield to Chairman Levin.
    Chairman Feinstein. Please go ahead.
    Senator Levin. Madam Chairman, first, we thank Senator 
Whitehouse for that courtesy, as always.
    General, let me ask you first about information sharing. In 
your answers to the committee's prehearing questionnaire, you 
state that you believe obstacles remain to adequate information 
sharing. You said that the obstacle was cultural. Our 
congressional investigations by a number of committees of 
recent terrorist attacks reveal, for instance, the CIA will not 
share its database of operational cables with the DOD's Joint 
Intelligence Task Force for Counterterrorism or with the NSA's 
counterterrorism analysts and watch center.
    NSA itself feels it cannot allow non-NSA personnel to 
access the main NSA signals intelligence databases on the 
grounds that these personnel cannot be trusted to properly 
handle U.S. persons' information. Can you comment on that 
question, on information sharing among agencies?
    General Clapper. Well, sir, it continues to be a problem. I 
think we've got a challenge, I guess. It's better than it was. 
It's better than it was before 9/11, but it needs improvement. 
I think NSA is, understandably, very conscientious about the 
protection of potential data on U.S. persons. They're very, 
very sensitive to compliance with the FISA, as they should be. 
So that does, that is one inhibitor to full and open and 
collaborative sharing that we might like. That's an area that I 
intend to work, if I'm confirmed.
    Senator Levin. You also said that you'll achieve progress 
in information sharing by the ``disciplined application of 
incentives, both rewards and consequences.'' Why do we need 
incentives? Why don't we just need a directive from the 
President by executive order, for instance, or otherwise? Why 
do we need incentives, rewards and consequences?
    General Clapper. Well, that's one way of inducing change in 
culture, is to provide rewards for those who collaborate and, I 
suppose, penalties for those that don't.
    Senator Levin. Should they be needed?
    General Clapper. And obviously, directives are effective, 
too.
    Senator Levin. Should they be needed? In this kind of 
setting, where this has been going on so long, should----
    General Clapper. Yes, sir. That's an area, if I'm 
confirmed, I'll certainly look at to see if there is a need for 
further direction, or what other remedy there might be.
    Senator Levin [continuing]. Now, you also indicated, 
relative to a related subject which has been very much on our 
minds here in the Congress, the need for a single repository of 
terrorism data. Your statement in the prehearing questions is 
the following. ``An integrated repository of terrorism data 
capable of ingesting terrorism-related information from outside 
sources remains necessary to establish a foundation from which 
a variety of sophisticated technology tools can be applied.'' I 
gather that does not exist now?
    General Clapper. I think, sir, and I, at least, this is my 
own observation watching from somewhat afar, the Christmas 
bomber evolution. And I believe what is needed, and this is 
from a technology standpoint, is a very robust search engine 
that can range across a variety of data and data constructs in 
order to help connect the dots. I think we still are spending 
too much manpower to do manual things that can be done easily 
by machines. And if confirmed, that's an area I would intend to 
pursue.
    Senator Levin. Do you know if it's true that NCTC analysts 
have to search dozens of different intelligence databases 
separately, that they cannot now submit one question that goes 
out to all of them simultaneously? Is that true, do you know?
    General Clapper. I don't know the specifics, but that's 
certainly my impression, and that's why I made the statement in 
response to your previous question. I think what's needed here 
is a very robust, wide-ranging search engine or search engines 
that can do that on behalf of analysts so they don't have to do 
that manually.
    Senator Levin. I want to go to some structural issues now. 
The Intelligence Report and Terrorism Prevention Act says that 
the director of the CIA reports to the DNI. Is that your 
understanding?
    General Clapper. Yes, sir.
    Senator Levin. Is that clear enough? Is that the reason for 
some complications in this area?
    General Clapper. Well, I think it's--yes. That language is 
clear, but there's also language in there about, for example, 
the governance of foreign relationships, which are the province 
of the director of the Central Intelligence Agency, and they 
are to be ``overseen'' by the DNI, and so that is an area of 
ambiguity, I think.
    Senator Levin. Is section 1018 of the Act, which says that 
the President shall issue guidelines to ensure the effective 
implementation and execution within the executive branch of the 
authorities granted to the Director of National Intelligence, 
and these are the key words, in a manner that respects and does 
not abrogate the statutory responsibilities of the heads of 
departments, have those guidelines now been--were they issued 
by President Bush?
    General Clapper. Well, yes, sir, they were essentially 
promulgated in the revision to Executive Order 12333. And in 
that, Secretary Gates and I and Admiral McConnell, at the time, 
worked to attenuate some of the ambiguities created by the 
famous section 1018. The specific case in point is the 
involvement of the DNI in the hire and fire processes involved 
with intelligence leaders who are embedded in the Department of 
Defense.
    Senator Levin. And are you satisfied with those guidelines?
    General Clapper. I am at this point. Yes, sir. My view may 
change, if I'm confirmed.
    Senator Levin. Do you know in advance that your view is 
going to change?
    General Clapper. No, I don't.
    Senator Levin. But as of this time, you're satisfied with 
those guidelines?
    General Clapper. Yes, sir, I am.
    Senator Levin. Now, in answer to our committee's prehearing 
questionnaire regarding the DNI's role with respect to the DIA, 
NGA, NSA and NRO, you said that the DNI supervises their 
performance, sets standards and formulates policies governing 
these agencies and ensures that they fulfill their missions. 
You noted multiple times that three of those agencies are 
combat support agencies, which means that they provide critical 
wartime support to the combatant commands.
    And my question is the following: Do you believe that that 
authority which you mention is a shared authority with those 
agencies or is this exclusive in the DNI?
    General Clapper. You mean the combat support agency?
    Senator Levin. Those agencies, yes. Do you believe, for 
instance, that they must ensure that they fulfill their 
missions, that they supervise their performance? Is this a 
shared responsibility or are you, if you're confirmed, 
exclusively responsible for those functions of supervision and 
ensuring that they----
    General Clapper. I believe that is a shared responsibility. 
I think obviously the Secretary of Defense has obligations and 
responsibilities both in law and executive order to ensure that 
the warfighting forces are provided adequate support, 
particularly by the three agencies who are designated as combat 
support agencies. Obviously the DNI has at least a paternal 
responsibility to ensure that works as well.
    Senator Levin. Was that word ``fraternal''?
    General Clapper. ``Paternal.''
    Senator Levin. Paternal, not fraternal.
    General Clapper. Institutional obligation. I'll amend what 
I said.
    Senator Levin. All right. Now, in your current position 
have you taken a look at the Haqqani network? Have you 
determined whether or not they have engaged in terrorist 
activities that threaten U.S. security interests and, if so, do 
you support them being added to the State Department's list of 
foreign terrorist organizations?
    General Clapper. Sir, I'd rather not answer that off the 
top of my head. I'll take that under advisement and provide an 
answer for the record.
    Senator Levin. All right. Now, during the previous 
administration, we got conflicting prewar intelligence 
assessments from the intelligence community and the 
administration said in public and what the intelligence 
community was willing to assert in private. Do you believe that 
the importance of Congress as a consumer of intelligence 
products and advice is no less than that of senior officials of 
the administration? Do you owe us? Do you owe us, if you're 
confirmed, all of the unvarnished facts surrounding an issue, 
not just the facts that tend to support a particular policy 
decision, and do you believe that Congress, as a consumer of 
intelligence products, is entitled, again, to no less than that 
of senior officials of an administration?
    General Clapper. I believe that and not only that, but it's 
required in the law. The IRTPA stipulates that the DNI is to 
attend to the proper intelligence support to the Congress.
    Senator Levin. On an equal basis.
    General Clapper. Yes, sir.
    Senator Levin. Thank you. Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator Levin. 
Senator Chambliss.
    Senator Levin. Thank you.
    Senator Chambliss. Thanks, Madam Chairman. And welcome, 
General. As I told you in our telephone conversation after the 
President nominated you, I'm not sure why you want to come back 
before this committee again for this job because, as you stated 
in your article you wrote recently, this is probably the 
toughest job in the intelligence community, and your 
willingness to serve, particularly with your background in the 
intel community, says an awful lot about you, and we're 
fortunate to have you.
    Obviously, though, General, there's some problems out there 
within the office of the DNI, within the community itself that 
are going to have to be addressed. And these issues are very 
serious. They're not just matters of the size of the 
bureaucracy and I'm not sure what all they are. But again, as 
you and I talked, there are going to have to be some major 
changes. We just can't afford for another Christmas Day 
situation or a New York Times bomber situation to occur because 
we were fortunate there and it was not necessarily the great 
work of the intelligence community that prevented a very 
serious situation occurring within the United States.
    You do bring a wealth of intelligence background to this 
job, but so did the three predecessors to this job. You 
probably have more experience than all of them. But still, you 
have been involved. And these are friends of yours. They're 
individuals you have worked with, you've associated with and 
somewhere along the line there have been some apparently 
systemic failures that are going to have to be addressed to 
individuals that you have worked with. So it's not going to be 
any easier for you than for any of your predecessors.
    My question is, knowing that we can't afford for another 
situation like Christmas Day or the New York Times Square 
situation or the Fort Hood situation to occur where we had an 
awful lot of signs and where nobody connected the dots in spite 
of the statute being very clear as to who is to connect those 
dots, and that's going to be under your jurisdiction, what 
specific changes do you know now that you think need to be made 
as we go forward to make the community better, to make the 
office of the DNI stronger and to make the colleagues that 
you're going to be working with on a day-to-day basis more 
responsive to you as the chief intelligence officer of the 
United States?
    General Clapper. Sir, first of all, thanks for your 
introductory comment. I appreciate that. I think that I--or at 
least I would hope I can bring to bear this experience I've had 
over the last 46 years of having run a couple of the agencies, 
having been a service intelligence chief, having spent two 
years in combat getting shot at, what the value of intelligence 
is, that understanding of the intelligence community 
institutionally and culturally, that I can bring about a better 
working arrangement.
    I think, in my book at least, to be very candid, I think 
our most successful DNI to this point was Admiral Mike 
McConnell precisely for the same reason, because he had some 
experience in the business. He had run an agency, NSA, and had 
done other things in intelligence. And I think that does give 
one an advantage, an understanding where the problems are, 
where the skeletons are, if you will, and where the seams are 
and how to work those issues.
    I think that is in fact the value added, potentially, of 
the DNI, is to get at those seams and to work those issues 
where I perhaps don't require a lot of time learning the ABCs 
of intelligence. So I can't at this point list you chapter and 
verse. I certainly will want to get back--if I'm confirmed--get 
back to the committee on specific things. I do have some things 
in mind but some of the people affected don't know what those 
are and I certainly didn't want to presume confirmation by 
announcing those ahead of time. But certainly, if confirmed, 
I'd want to consult with the committee on what I would have in 
mind.
    Senator Chambliss. And have you, as a part of your 
communication and conversation with the President, prior to 
your nomination and maybe subsequent there to, engaged him in 
the fact that there are some changes that are going to need to 
be made and you're going to have to have the administration's 
support.
    General Clapper. Yes, sir, and I had done that in writing 
before I was nominated. Whether it was me or someone else as 
DNI, at Secretary Gates' suggestion, I wrote a letter to the 
President and made that point clear.
    Senator Chambliss. And you mentioned that letter to me and 
that you had hoped that the White House would at least share 
that with the Chairman and Vice Chairman. Do you know whether 
that's been done?
    General Clapper. I don't know, sir. I don't know that 
actually the request has been made to the White House.
    Senator Chambliss. Okay. Well, General, I've known you for 
a long time, seen you operate, and you are certainly well-
qualified for this job. It is going to be a tough job, but I 
hope you know and understand that this committee's here to help 
you and we want to make sure from an oversight standpoint that 
you've got the right kind of policy support and political 
support from this side of Pennsylvania Avenue. And we know soon 
that it will be there from the other side. So we look forward 
to working closely with you.
    General Clapper. Sir, I appreciate that. And that is 
absolutely crucial. I don't believe oversight necessarily has 
to be or implies an adversarial relationship. And I would 
need--if I'm confirmed, I would need the support of this 
committee to bring about those changes that you just talked 
about.
    Senator Chambliss. Well, thanks for your willingness to 
continue to serve. Madam Chairman, I don't know whether we've 
formally requested that, but I think certainly we should.
    Vice Chairman Bond. I would join with Senator Chambliss if 
we can make that request.
    Chairman Feinstein. Fine. Certainly can. Thank you. Thank 
you, Senator Chambliss.
    Senator Feingold.
    Senator Feingold. Thank you, Madam Chair. Congratulations 
again, General Clapper, on your nomination to this critically 
important position. I agree you are clearly well qualified for 
this.
    Madam Chair, I'd like to put a statement in the record.
    [The prepared statement of Senator Feingold follows:]

             Prepared Statement of Senator Russell Feingold

    General Clapper's nomination comes at a critical moment for the 
Intelligence Community and for our national security. Reform--of the IC 
and of congressional oversight--is long overdue. To save taxpayer 
dollars, I have supported in this committee, and incorporated into my 
own Control Spending Now bill, provisions requiring reporting on long-
range budget projections for the IC, the costs of acquisition systems, 
cost overruns, and the risks and vulnerabilities of intelligence 
systems. We must also ensure that the GAO has access to the IC and that 
there is accountability for impediments to auditing.
    At the same time, we cannot afford so much overlap and redundancy 
when there are still parts of the world, as well as emerging threats, 
about which we know very little. This is why the Senate has approved, 
as part of the intelligence authorization bill, legislation I proposed 
to establish an independent commission that will address these gaps by 
recommending how to integrate and make best use of the clandestine 
activities of the IC and the open collection and reporting of the State 
Department.
    Intelligence reform also requires reform of the oversight process. 
That is why I have introduced a bipartisan resolution to implement the 
recommendation of the 9/11 Commission to grant appropriations authority 
to the Intelligence Committee, as well as a bipartisan effort to 
declassify the top-line intelligence budget request, a requirement if 
there is to be a separate intelligence appropriations bill as called 
for by the 9/11 Commission. Finally, we must eliminate once and for all 
the ``Gang of Eight'' briefings that leave the full committee in the 
dark.

    Since our meeting last week I hope you had a chance to 
review the congressional notification requirements in the 
National Security Act. Have you had a chance to do that?
    General Clapper. I have, sir.
    Senator Feingold. And do you agree that the so-called Gang 
of Eight notification provision applies only to covert action 
and not to other intelligence activities?
    General Clapper. Sir, you're quite right. Section 502 and 
503 of the National Security Act of 1947 do only call out 
covert action as requiring more limited notification. In the 
opening statement, however, of Section 502, it does allude to 
the protection of sources and methods, which I think in the 
past has been used to expand the subject matter beyond covert 
action, which would require a limited notification.
    That all said, I will be a zealous advocate for full 
notification and timely notification to the Congress.
    Senator Feingold. I appreciate the statement and the spirit 
of it. I just want to point out that when you refer to that 
preliminary language, that language is in both sections, but 
the additional language about the Gang of Eight notifications 
in the section on covert action means, in my view, that limited 
notifications were not intended for other intelligence 
activities.
    General Clapper. Yes, sir, but as I say that, that opening 
verbiage has been interpreted to expand that and I'll tell you 
what my personal attitude is, but at the same time I don't feel 
it's appropriate to preempt what the President might want to 
decide. So I'll tell you my attitude again is I will be a 
zealous advocate for timely and complete notification.
    Senator Feingold. And I appreciate that. I just want to say 
for the record, I think that is an incorrect interpretation, 
but obviously you're not alone in your view that that can be 
done. But I really feel strongly that's incorrect.
    Senator Feingold. While many of the operational details of 
intelligence activities are justifiably classified, I believe 
the American people are entitled to know how the intelligence 
community, the Department of Justice and the FISA Court are 
interpreting the law. Do you agree with that general principle?
    General Clapper. Yes, sir, in general, I do.
    Senator Feingold. And I have identified a number of areas 
in which I think the American people would be surprised to 
learn how the law has been interpreted in secret. As you 
consider these types of requests for declassification, will you 
keep this principle that you and I just agreed upon in mind?
    General Clapper. Yes, sir, I will.
    Senator Feingold. One of the issues that has arisen in the 
context of your nomination is the Department of Defense's 
perception that provisions of the intelligence authorization 
bill may be in tension with the secretary's authorities, but I 
want to focus for the moment on the reason these are in there 
in the first place and why I've incorporated them into my own 
bill, which I call my control spending now legislation. They 
would improve accountability and help save taxpayer dollars.
    General, at our meeting last week, you told me that not all 
problems require statutory solutions. So how as DNI would you 
go about fixing the cost overruns and other problems that this 
legislation is designed to address?
    General Clapper. Well, I would continue to support the 
management mechanisms that have been established, specifically 
an agreement on acquisition oversight signed by, I think, then-
Director McConnell and Secretary Gates. That said, of course, 
acquisition is, in general, a huge challenge, whether it's in 
intelligence or elsewhere. And so I don't have any magic silver 
bullets here to offer up because if I did, I wouldn't be here 
to solve these significant acquisition problems.
    It does require systematic program reviews. It requires, I 
think, integrity on the part of program managers to ensure that 
they are honestly reporting out their problems and identifying 
issues early enough so that remedies can be afforded.
    Senator Feingold. The intelligence authorization bill would 
also establish an independent commission that would recommend 
ways to integrate the intelligence community with the U.S. 
government personnel, particularly State Department personnel 
who openly collect information around the world. This reform 
was first proposed by Senator Hagel and myself and I think it's 
critical if we're going to anticipate threats and crises as 
they emerge around the world.
    Would you be open to a fresh look and a set of 
recommendations on this issue from this commission?
    General Clapper. I would.
    Senator Feingold. In responding to yesterday's Washington 
Post story, Acting Director Gompert defended overlap and 
redundancies in the intelligence community. But given finite 
resources and budget constraints, to what extent should we be 
prioritizing efforts to understand parts of the world and 
emerging threats that no one is covering?
    General Clapper. Well, you raise a good point, sir, and we 
did discuss earlier that in some cases one man's duplication is 
another man's competitive analysis. So in certain cases, I 
think, as it was during the Cold War, when you have an enemy 
that can really damage or mortally wound you, that's merited.
    I think in many cases what was labeled as duplication, a 
deeper look may not turn out to be duplication; it just has the 
appearance of that, but when you really look into what is being 
done particularly on a command-by-command basis or intelligence 
analytic element on a case-by-case basis, it's not really 
duplication.
    I think the important point you raise, though, sir, has to 
do with what about the areas that are not covered, and that has 
been a classic plague for us. I know what the state of our 
geospatial databases were on 9/11 in Afghanistan, and they were 
awful, and it's because at the time the priority that 
Afghanistan enjoyed in terms of intelligence requirements.
    So we can't take our eyes off the incipient threats that 
exist in places, an area that I know you're very interested in, 
for example, Africa, which is growing in concern to me, 
personally.
    Senator Feingold. Thank you, General. What is your view of 
GAO access to the intelligence community?
    General Clapper. Well, sir, the GAO--in several 
incumbencies over my time the GAO has produced very useful 
studies. I would cite as a specific recent case in point the 
ISR road map that we're required to maintain and the GAO has 
critiqued us on that. I've been very deeply involved in 
personnel security clearance reform. The GAO has held our feet 
to the fire on ensuring compliance with IRTPA guidelines on 
timeliness of clearances and of late has also insisted on the 
quality metrics for ensuring appropriate clearances.
    So I think the GAO serves a useful purpose for us.
    Senator Feingold. I appreciate your attitude on that as 
well. Meaningful intelligence reform is also going to require 
some reform of the oversight process. Is it time for the Senate 
to grant appropriations authority to this committee, as the 9/
11 commission recommended? For that to work, however, there has 
to be an unclassified topline intelligence budget request that 
would allow for a separate appropriations bill.
    Would you support the declassification of the President's 
topline intelligence budget request?
    General Clapper. I do support that. It has been done. In 
fact, I also pushed through, and got Secretary Gates to 
approve, revelation of the Military Intelligence Program 
budget. I thought, frankly, we were being a bit disingenuous by 
only releasing or revealing the National Intelligence Program, 
which is only part of the story. And so Secretary Gates has 
agreed that we could also publicize that, and I think the 
American people are entitled to know the totality of the 
investment we make each year in intelligence.
    And sir, I was cautioned earlier by members about delving 
into congressional jurisdiction issues. I prefer not to touch 
that with a 10-foot pole other than to observe that it would be 
nice if the oversight responsibilities were symmetrical in both 
houses.
    I've also been working and have had dialogue with actually 
taking the National Intelligence Program out of the DOD budget 
since the reason, the original reason for having it embedded in 
the department's budget was for classification purposes. Well, 
if it's going to be publicly revealed, that purpose goes away. 
And it also serves the added advantage of reducing the topline 
of the DOD budget, which is quite large, as you know, and 
that's a large amount of money that the department really has 
no real jurisdiction over.
    So we have been working and studying and socializing the 
notion of pulling the MIP out of the department's budget, which 
I would think also would serve to strengthen the DNI's hand in 
managing the money in the intelligence community.
    Senator Feingold. Thank you for all your answers, and good 
luck.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator Feingold.
    Senator Burr.
    Senator Burr. Thank you, Madam Chairman.
    General, welcome. We're delighted to have you here, and I 
think you'll be the next DNI, hopefully sooner versus later--
and I say that for the Chair and the ranking member. I hope 
we'll move this as expeditiously as we can. And, as I've 
publicly said, I think that you bring to this position a rich 
experience that many have covered, as well as yourself, that 
benefits one's ability to be successful, and our intelligence 
community needs that desperately right now.
    I've got to say, as it relates to the members' references 
to The Washington Post article--or articles, plural--it pains 
me, because I don't believe that what happens within the 
intelligence community is something that needs to be as public 
as it sometimes is. It disturbs me as we promote Unmanned 
Aerial Vehicles on TV, and we do it with the full knowledge of 
knowing that we give away something every time we do it. I 
think the American people understand that if you have 
sufficient oversight in place, you trust the individuals that 
you've chosen to put in those roles.
    So I see this explosion of publicity about what happens 
within our intelligence community really as a blow to us, the 
oversight committee, and the inability for us to work 
effectively with those within the community. So I hope you 
understand, at least from myself, that I believe the committee 
has to be robust in our oversight.
    It's not a reflection of the leadership of our committee, I 
might say to the Chair and ranking member. I think it's an 
overall level of cooperation between the intelligence community 
and the committee, and I hope that we will work as partners to 
make sure that the trust of the public, but also the trust of 
our colleagues, is entrusted in this committee, that we're 
doing our job and that we've got our eye on the right thing.
    Now, you said earlier that the DNI needs to be a leader of 
the intelligence community and provide direction and control. 
Can you define direction and control for me in this context?
    General Clapper. I think what's intended in the term 
``direction and control'' is that the DNI, I think, is 
ultimately responsible for the performance of the intelligence 
community writ large, both the producers of intelligence and 
the users of intelligence which are represented in those 16 
components.
    And I believe that under the, obviously, the auspices of 
the President, who I believe intends to hold the DNI--whether 
it's me or somebody else--responsible for that performance, and 
that that therefore empowers the DNI to direct the intelligence 
chiefs as to what to do; what the focus should be; what the 
emphasis should be, or, if that should change; if there needs 
to be--if we need to establish ad hoc organizations to perform 
a specific task; if we need to have studies done, whatever it 
takes.
    I believe that inherent in the DNI--at least the spirit and 
intent of the IRTPA legislation--was that he would, he or she 
would direct that and be responsible for it.
    Senator Burr. Do you believe there will be times where the 
DNI has to be a referee?
    General Clapper. I think there could be times when--yes, I 
do.
    Senator Burr. This has already been covered, General, but 
I've got to cover it just one more time. I believe that this 
committee is to be notified quickly on any significant attempt 
to attack, once an attack's carried out, or there is a 
significant threat that we have credible evidence of.
    Do I have your commitment today that you will, in a timely 
fashion, or a designee by you, brief this committee on that 
information?
    General Clapper. Absolutely, sir. Of course, it carries 
with it the potential of it not being exactly accurate, because 
my experience has been most critics are wrong. But I believe 
that what you ask is entirely appropriate and reasonable.
    Senator Burr. And General, do you have any problem if this 
committee asks for a level of raw data to look at on pertinent 
threats or attempts--at sharing that raw data with us?
    General Clapper. I don't have a problem with it 
philosophically, sir. Just that I would want, as the DNI, if 
I'm confirmed for that position, would want to ensure that at a 
given time, to give you the most complete picture I can, which 
is as accurate as possible. And oftentimes with raw--so-called 
raw material, it's erroneous or incomplete or misleading. So, 
with that caveat, I don't have a problem with it, but I just 
want you to understand what you're getting when you get that.
    Senator Burr. I accept that caveat, and I think most 
members would. I think that the raw data is absolutely 
essential for us to do the oversight role that we're charged 
with. It's certainly not needed on every occasion, but on those 
that it might play a role, I hope you will, in fact, provide 
it.
    Now, you covered the history of the intelligence community, 
especially as it related to the 1990s, and how that affected 
our capabilities post-9/11. Would we have been able to meet the 
intelligence community needs had we not had contractors we 
could turn to, post-9/11?
    General Clapper. No, sir.
    Senator Burr. Do you believe that we'll always use some 
number of contractors within the intelligence community?
    General Clapper. Yes, sir, I do.
    Senator Burr. And I know this has been a focus of a lot of 
members about downsizing the contractor footprint, and I'm fine 
with that. But there's a big difference between downsizing and 
eliminating. And there's a tremendous talent out there that, 
thankfully, we were able to tap into.
    I would hate to see us become so adverse to the use of 
contractors that we would sacrifice potential. And I applaud 
the effort to try to downsize the footprint of them, but hope 
that we leave the flexibility to use them where it's 
appropriate.
    General Clapper. Absolutely sir. I couldn't agree with you 
more.
    And I worked as a contractor for six years myself, so I 
think I have a good understanding of the contribution that they 
have made and will continue to make. I think the issue is, 
what's the magnitude? And most importantly, regardless of the 
numbers of companies, the number of contractor employees, is 
how the government, and specifically the intelligence 
community, how do we manage them; how do we ensure that we're 
getting our money's worth?
    Senator Burr. Lastly--and it's covering ground already 
discussed--you indicated that not all of the intelligence 
community efforts need to be exclusively managed out of the 
ODNI, that they can be decentralized and delegated where 
appropriate.
    Do you have any concerns that that might undercut the 
authority of the DNI?
    General Clapper. No, sir, I don't. And I'll give you a 
specific case in point:
    When I came into this job, early on--in fact, in May of 
2007--and I prevailed upon both Secretary Gates and then-DNI 
McConnell to dual-hat me as the Director of Defense 
Intelligence, a position on the DNI staff, as a way of 
facilitating communication and bridging dialogue between the 
two staffs. And I think the record will show that we've worked 
very well together.
    I would propose to--Director Blair, to his great credit, I 
thought, breathed life, great life into that concept--and I 
would propose, if I'm confirmed, to do the same, and have the 
same relationship with my successor, if I'm confirmed for 
this--as USD/I, if I'm confirmed for DNI. And I think that same 
approach can be used in other relationships, perhaps with the 
Department of Homeland Security, just to cite an example off 
the top of my head.
    All I'm saying is, I don't think that everything has to be 
executed from within the confines of the Office of the Director 
of National Intelligence, that there are things that can be 
delegated and done on behalf of the DNI, as long as they are 
visible to, and with the approval of, the DNI.
    Senator Burr. General, I thank you for your candid answers.
    In our telephone conversation, I said to you that your 
tenure as DNI would determine whether the structure we set up 
actually can work, will work, or whether we need to rethink 
this. I believe that we've got the best chance of success with 
your nomination, and I look forward to working with you.
    Thank you, Madam Chair.
    General Clapper. Thank you, sir.
    Chairman Feinstein. Thank you, Senator Burr.
    And finally, Senator Whitehouse. Thank you for your 
courtesy to your colleague, too.
    Senator Whitehouse. Thank you, Madam Chair.
    Welcome, General Clapper. Near the bitter end.
    I'd like to go back to cybersecurity and ask you about five 
topic areas within it.
    The first is the information that the public has about 
cybersecurity. Are you comfortable that the public is 
adequately aware of the scope and severity of the cybersecurity 
threat that the country faces?
    General Clapper. Candidly, no, sir. I don't think there is 
a general appreciation for the potential threat there.
    I think there is widespread knowledge in the cyber 
community, meaning the cyber industry, if you will. I think 
there's a less acute awareness, perhaps, out there in what I'll 
call the civil infrastructure. But I think the general public 
is not aware of the potential threat, no.
    Senator Whitehouse. The reason that I ask that is that it's 
difficult in a democracy to legislate in an area where the 
public is not adequately aware of the threat.
    So I hope that, as we go forward through the 35, 40, 45 
pieces of legislation that are out there, that you will help us 
bring to the attention, in a--you said we do over-classify, I 
think we particularly over-classify here--that in areas where 
it really doesn't adversely affect national security, there's a 
real advantage to getting this information out to the public. 
And I hope you'll cooperate with us in trying to do so, so that 
we're dealing with a knowledgeable public as we face these 
legislative questions.
    General Clapper. I will, sir. And I believe that it is, in 
fact, incumbent on the intelligence community to help provide 
that education to the maximum extent possible without the undue 
revelation of sources and methods.
    Senator Whitehouse. The basic sort of protective hardware 
that is out there right now could protect the vast majority of 
cyber intrusions that take place. Do you agree that trying to 
establish and monitor basically what I would call rules of the 
road for participation in our information superhighway is an 
area that could stand improvement?
    General Clapper. If you mean, if I understand your 
question, sir, sort of conventions or rules that, in order to 
participate, this is what was required, and at sort of minimum 
levels of security. Is that----
    Senator Whitehouse. Yes. For ordinary folks who are getting 
on, to be aware that their laptop, for instance, is 
compromised, and willing to do something about it, and that we 
put a structure in place so that you can't do the cyber 
equivalent of driving down the road with your headlights out, 
your tail lights out, your muffler hanging, at 90 miles an 
hour.
    General Clapper [continuing]. Well, I personally agree with 
that. I think there'll be a sales job, a marketing job required 
to get people to buy into that.
    Senator Whitehouse. And in terms of if you sort of step it 
up to America's business community, do you feel that the 
private sector or the business community is adequately situated 
with respect to their own independent self-defense against 
cyber attack? Or does the networking of private business, say 
by industrial sector, and the relationship with government need 
to be improved so that our major businesses can protect their 
critical infrastructure better?
    General Clapper. Sir, I'm not technically fluent here, but 
my general sensing is that, given the sophistication of some of 
our major adversaries, nation-state adversaries, I'm not sure 
that, given the rapidity with which new ways of accessing 
computers, I'm not sure that they're as current on that--those 
sectors to which you refer are as current as they could or 
should be.
    Senator Whitehouse. And if we're to the point where a 
private business which provides critical American 
infrastructure--a major bank, a major communications entity, an 
electric utility, some other form of infrastructure upon which 
American lives and property depend--were to be the subject of a 
sustained and damaging cyber attack, are you confident that, at 
the moment, we have adequate authorities for the government to 
be able to step in and do what it needs to do in a clear way to 
protect American lives and property?
    General Clapper. Again, I'm not expert on this, but my 
general sensing is, no, we're not. I think the whole law on 
this subject is a work in progress. It's still an issue, 
frankly, even in a warfighting context.
    Should we have a declaratory policy or not on what we would 
do? I would be concerned about the rapidity of response and--
which I think is the key, and I think if you speak with General 
Alexander about that, who I do consider an authority, that he 
would raise that same concern.
    Senator Whitehouse. And lastly on this subject, are you 
confident that the rules of engagement for our covert agencies 
in addressing attacks and intrusions that take place on our 
cyber infrastructure are adequate and fully robust for the 
challenge that we face, or is that another area of work in 
progress?
    General Clapper. Yes, sir. It's a work in progress, and I 
think perhaps best left for detailed discussion in a closed 
session.
    Senator Whitehouse. I won't go any further than that in 
this session, but I did want to get your general perspective on 
that.
    I've only been in the Senate for three years. You are my 
fourth Director of National Intelligence already. You gonna 
stick around?
    General Clapper. Yes, sir. I will. I wouldn't take this on 
without thinking about that.
    And I do think my experience has been that it does take 
time to bring these changes about. When I was asked to take 
NIMA in the summer of 2001, I was specifically asked would I be 
willing to stay for five years, and I agreed to do that. Didn't 
quite last that long; ran afoul of the previous Secretary of 
Defense. But I believe that kind of commitment is required.
    I also would be less than forthright if I said that I'm 
going to sit here and guarantee that the intelligence community 
is going to bat a thousand every time, because we're not. And I 
think I am reasonably confident I can make this better. I don't 
think I'm going to be able to cure world hunger for 
intelligence, just to be realistic.
    Senator Whitehouse. And I'm not going to hold you to this. 
It's not intended to be a question of that variety, to pin you 
down; it's intended to be a question to sort of illuminate the 
areas that you're most focused on.
    Going into this job now, and knowing what you know now, 
when it comes time for you to go--and let's hope it's five 
years from now--what now would you think would be the most 
important things that, at that later date, you would like to 
look back on as having accomplished?
    General Clapper. I think, for starters, that I kept the 
nation safe. I think, obviously, this is somewhat a high-wire 
act with no safety net. And I think that's probably the thing 
that will keep me up at night, is worrying about that. So, for 
whatever my tenure is, if the intelligence community has at 
least contributed to preserving the safety of the nation and 
its people, then I think that would be the main thing I'd worry 
about.
    Senator Whitehouse. Well, I wish you well. You've got a 
hell of a tough job in front of you, if you're confirmed. And 
any support that we can give you, obviously we'd like to do.
    There are significant questions about what the role of the 
DNI should be, what its authorities should be to complement 
that role. Some of that is a chicken and egg question, that you 
have to settle on one to resolve the other. And we really look 
forward to working together with you to try to get this settled 
for once and for all.
    General Clapper. Thanks, Senator.
    Senator Whitehouse. Thanks, Madam Chairman.
    Chairman Feinstein. Thank you, Senator Whitehouse.
    Senator Nelson.
    Senator Nelson. Thank you, Madam Chairman.
    Good afternoon, and thank you, General, for your public 
service.
    The Congress created this position in order to try to exert 
some control over the multiple intelligence units that were at 
times going off in their own directions. And in the compromises 
that we had to make in enacting this legislation that creates 
the post that you seek, a great deal of control was still left 
within the Department of Defense at the insistence of then-
Secretary of Defense Rumsfeld.
    How can you bring the Department of Defense intelligence 
operations in under your orbit so that you can function 
effectively?
    General Clapper. Well, sir, I don't anticipate a problem 
there.
    I think I know the Department of Defense pretty well, and 
that is where roughly two-thirds of the manpower and the money 
for the National Intelligence Program is embedded. And I would 
argue or suggest, respectfully, that having run two of the 
agencies in the Department of Defense and having served as a 
service intel chief actually will help empower me to, you know, 
sustain having I'll call it a positive relationship with the 
Department of Defense components. I've been there, and done 
that, got the t-shirt, so I think I know how to take advantage 
of that.
    Senator Nelson. Well, the old adage, he who pays the piper 
calls the tune, and a lot of that Defense intel activity does 
not have to report directly to you on the appropriations. How 
do you get into that when somebody wants to go off on their 
own?
    General Clapper. Well, I would intend to further 
crystallize the relationship that Secretary Gates, and then-DNI 
McConnell established in May of 2007 designating the Under 
Secretary of Defense for Intelligence as the Director of 
Defense Intelligence.
    I have fostered, with the two DNIs I've served with in this 
job, a close working relationship on synchronizing the two 
programs--the National Intelligence Program and the MIP. In 
fact, Director Blair and I, you know, twice, two rounds, 
testified together on those two programs.
    We've had an aggressive program effort, which has been 
going on for a couple of cycles now, to further synchronize and 
deconflict the two programs, and to coordinate between the NIP 
and the MIP. And I would certainly want to continue that with 
my successor in the USD/I job, if I am confirmed to be the 
Director of National Intelligence.
    I don't think, frankly, although there's much made of it 
sometimes, I think it's somewhat hyperbole about the strained 
relationship between the DNI and the Department of Defense. I 
just don't think that that's--I haven't seen that. And I have 
certainly endeavored, working with Secretary Gates, to actually 
enhance and strengthen the role of the DNI. The DDI is one such 
approach. And certainly Secretary Gates and I worked during the 
revisions to the Executive Order 12333 to actually strengthen 
the position of the DNI.
    Senator Nelson. Why don't you share, for the record, what 
you shared with me privately about your forthcoming 
relationship with the Director of the CIA?
    General Clapper. I'll provide that for the record. Yes, 
sir.
    Senator Nelson. Well, I mean, share it now.
    General Clapper. Well----
    Senator Nelson. Basically, you saw the relationship was 
strained. There was a little dust-up between the two in the 
immediate past DNI. How do you intend to smooth that out?
    General Clapper [continuing]. Well, just to continue, sir, 
with my comments earlier, as you know, the intelligence 
community is, as you know, composed of 16 components, 15 of 
which are in someone else's Cabinet department. And actually 
the most strained relationship has been with the one component 
that isn't in someone's Cabinet department, and that is the 
Central Intelligence Agency.
    That has been true regardless of who the incumbents were. 
It has nothing to do, really, with the people involved. All of 
them are good people. I have had some excellent discussions 
with Director Panetta about this, and I think I'm very, very 
encouraged and pleased by his support. He's been extremely 
gracious and supportive, and I think he wants to make this 
arrangement work as much as you do.
    Senator Nelson. Will you participate in the President's 
daily morning brief?
    General Clapper. I will participate--I plan to participate, 
yes, sir. I don't plan to give it, necessarily, but I plan to 
participate in it.
    Senator Nelson. Will the Director of the CIA participate as 
well?
    General Clapper. He could, depending on the subject matter, 
I suppose. But I wouldn't--I certainly wouldn't object to that.
    Senator Nelson. Do you get the sense that that was a little 
bit of contention since suddenly what had been historically the 
role of the CIA Director was suddenly not the role once the DNI 
was established?
    General Clapper. That obviously has been a challenging 
transition. It's my belief and my observation from somewhat an 
outside perspective that that is an arrangement that has 
evolved for the better, since increasingly more input finds its 
way into the PDB from other than the CIA.
    The CIA will continue to provide the lion's share of the 
finished intelligence analysis that goes into the PDB. But 
under the new structure and the new set-up, under the auspices 
of the DNI, it is much more--it's much broader and involves 
more of the community. I recently reviewed some statistics that 
bear that out.
    Senator Nelson. Recently we've had some cases of homegrown 
terrorists--the Colorado folks, the Times Square folks, the 
Fort Hood person. Do you want to comment for the committee 
about what you think ought to be done?
    General Clapper. Well, I think, sir, this is a very--we did 
speak about this earlier--a very serious problem. And I was 
pretty deeply involved and intensely involved in the Fort Hood 
aftermath, particularly with respect to the e-mails exchanged 
between the radical cleric Aulaqi and Major Hasan.
    And what it points out, in my view, is a serious challenge 
that I don't have the answer for, and that is the 
identification of self-radicalization, which may or may not 
lend itself to intelligence detection, if you will. And this 
requires, you know, in the case of the Department of Defense, 
some education on how to tell people, or instruct people, or 
suggest to people how they discern or identify self-
radicalization that's going on right in front of them with an 
associate.
    And to me it's almost like detecting a tendency for suicide 
ahead of time. It's a very daunting challenge and we cannot 
necessarily depend on intelligence mechanisms to detect that 
self- radicalization.
    Senator Nelson. On page 23 of your testimony, you consider 
counterintelligence to be under-resourced. You want to share 
with us why and also where you would increase the resources?
    General Clapper. I think, given the profound threats posed 
to this country both by nation-states and others who are trying 
to collect information against us, and we have some very 
aggressive foreign countries that are doing this, I'm not 
convinced that--and this is more intuitive or judgmental or 
impressionistic--that we have devoted sufficient resources to 
counterintelligence in the Department of Defense, certainly, 
which is a major player in counterintelligence, or with the FBI 
or CIA which are the three poles, if you will, involved in 
counterintelligence.
    And this is something I intend to explore to see what we 
can do to expand resource investment in counterintelligence. 
This is particularly crucial in the case of cyber. We have the 
same challenge in cyber for counterintelligence as we do more 
conventionally.
    Senator Nelson. Madam Chairman, are we going to do a 
classified session at any point?
    Chairman Feinstein. We can if there is a request. We will 
not do it today, however.
    Senator Nelson. Thank you, Madam Chairman.
    Chairman Feinstein. You're very welcome. Thank you, 
Senator.
    General Clapper, let me just say I think you've done very 
well. I think what comes through very clearly is your expertise 
in the specifics of intelligence. I think that's appreciated 
and I think it'll make your job a lot easier. I do have a 
couple of questions, and I know the Vice Chairman has a couple 
of questions. So I'd like to just continue this a little bit 
longer, if I might.
    Have you had a chance to take a look at the 13 
recommendations we made on the Abdulmutallab situation?
    General Clapper. Yes ma'am, I have, and I had an excellent 
session with Mike Leiter last week on this very topic, so he 
kind of went over that with me.
    Chairman Feinstein. Okay, then the problem clearly is for 
me, still, connecting the dots. Huge expenditures in computer 
programs, often bought separately by various departments, 
organizations, et cetera, can't connect in certain critical but 
very simple areas. I would like to suggest that that be high in 
your portfolio and that you take a very careful look at it, 
because I would think we are spending billions of dollars on 
high technology which, candidly, doesn't work nearly as well as 
it should, particularly in this area, where an identification 
can be really critical and one letter or one number should not 
make a difference. Do you have a comment?
    General Clapper. No, I agree with you. As I alluded to 
earlier, I think, despite all the huge investments in IT that 
we've made, that we still depend too much on the minds of 
analysts to do things that we ought to be able to harness with 
our IT to connect those dots.
    Chairman Feinstein. Okay, the second is PREDATOR-REAPER 
oversight. I think this is an area that we have been very 
concerned about, and this committee is taking that oversight 
very seriously and has been very active in seeing that this is 
carefully done, that the intelligence is excellent. And I'm one 
that believes that the CIA in particular has had a remarkable 
record, with very good intelligence, and in some ways really 
the best of what can be. I just hope that you will have this at 
a high level for your own oversight.
    General Clapper. Absolutely.
    Chairman Feinstein. Thank you.
    The third is Afghanistan. I read a quote by Major General 
Michael Flynn earlier in the year that said--and I'm 
paraphrasing--that eight years into the war, the intelligence 
community is only marginally relevant to the overall strategy. 
U.S. intelligence officers and analysts can do little but shrug 
in response to high-level decisionmakers seeking knowledge. 
Would you take a look at that and perhaps talk with him and see 
where we are, if we are in fact lacking?
    General Clapper. Well, I already have had extensive 
dialogue with Mike Flynn when the article first came out. And a 
careful read of it I think is--I think it's a Pogo article. We 
weighed the enemy, and it's ourselves, because what the article 
really talks to is the situation in Afghanistan, much of which 
is, I think, under his control.
    I think what occasioned the article was the change in our 
strategy from a classic CT or counterterrorist mission to a 
much, much broader counterinsurgency mission. And it's true. We 
did not have the intelligence mechanism there to make that 
shift that quickly. I think what he's really getting to is the 
cultural, the human terrain--if I can use that phrase--
perspective and insight that's required to understand the 
village dynamics down to the very nitty-gritty level. And so 
that's what his complaint was about.
    As I told him, if he felt that they had too many 
intelligence analysts at the brigade combat, at the BCT level 
and he needed more down at the battalion or company level, it's 
up to him to move them. We're certainly not going to sit back 
here in the confines of the beltway and orchestrate 
intelligence in Afghanistan. He's the senior intelligence 
officer; that's his responsibility, and we back here will 
certainly support him.
    Chairman Feinstein. Okay, and finally, contractor analysis. 
Could you put that high on your agenda? I very much appreciate 
what you said. And that was that it all depends on what, where, 
the necessity, the type of thing. And I think we need to get 
that under control, and we do not currently have it under 
control. We need to know where, from an intelligence 
perspective, contractors should serve a vital use, and where 
they do not.
    As you know, the cost is about 70 percent more than a 
government employee, so it is a very expensive enterprise as 
well.
    General Clapper. Yes, it is. And of course, per our earlier 
discussion, you know, the reason why we got to where we are and 
the sudden re-expansion of the intelligence committee after 9/
11 and intelligence being an inherently manpower-intensive 
activity, so the natural outlet for that was contractors, whom 
we can hire one year at a time, which you can't do with 
government employees. And you can also get rid of them more 
quickly, so the expansion or contraction.
    So, for example, the Army right now has about 6,000 
contractor Pashtu linguists. Well, I'm not sure we want to keep 
them on as government employees when the need for Pashtu 
linguists hopefully goes down in the future. So I think rather 
than rote numbers or percentages, I think what we need to--and 
I do intend to get into this, if I'm confirmed--what are the 
ground rules, the organizing principles that govern where it's 
proper to use contractors and where it's not.
    Chairman Feinstein. Well, we will schedule a meeting in 
your ascendancy to come in and brief us on that, so be 
prepared. But I'd like just quickly to tell you what my 
intention is.
    I'm going to request that all members submit questions by 
noon tomorrow and ask you to answer them as quickly as you can. 
And as soon as we receive the answers, Members have a brief 
opportunity to digest them, we will schedule a markup. If we 
can do it in a week or ten days, that's fine; hopefully we can. 
Is that agreeable with you?
    General Clapper. Yes, ma'am. I would hope that whatever 
action is taken would be taken before the Senate adjourns in 
August.
    Chairman Feinstein. Well, we will certainly strive to do 
that, and the questions become a vital part, first of all, of 
us getting them, and secondly, your responding. But you've been 
very prompt in your responses, and I've no reason to believe it 
would be otherwise, so we will try to do our best to 
accommodate that.
    Let me just end by saying I think you've performed really 
very well. And once again, your expertise in this area is very 
much appreciated and I think will be very well used.
    General Clapper. Thank you.
    Chairman Feinstein. Mr. Vice Chairman.
    Vice Chairman Bond. Madam Chair, thank you for making it 
clear that we will have more questions for the record. I 
frankly have some questions for the record. I'd like to have 
your fuller explanation because they seem to be inconsistent 
with previous positions and some are not clear. I do want to 
have those.
    Madam Chair, if it's possible, Senator Nelson said that he 
would like to have a closed hearing.
    I think there are some things that you are interested in 
that might be best covered in a classified hearing, and I have 
a couple of areas of overlap between military and civilian that 
I prefer not to discuss in an open session. So we will do that, 
and I would join you saying that the nominee has certainly 
stayed with it for a long time. We appreciate that.
    Chairman Feinstein. He says he does not need one. But if 
you do----
    Vice Chairman Bond. Well, we might be able to have some 
classified questions at least then that we can submit for 
response, because there's just a couple of things that probably 
I'd prefer not to discuss in an open session.
    But let me go back. A general question you'll be asked in 
writing--and I think it's good to have on record--will you 
cooperate with both the Chair and the Vice Chair, as well as 
with our staffs, by promptly responding to written and phone 
inquiries, sharing information, being proactive in sharing it 
with us?
    General Clapper. Yes. Yes, sir.
    Vice Chairman Bond. That's something we talked about, and I 
wanted to--we mentioned that. I wanted to make sure that the 
staff knows that on both sides. And we will look forward to 
your full answers, but I want to go back--I was going down a 
road talking when I ran out of time on the first round.
    Talking about Guantanamo detainees and their release, when 
I communicated to the national security advisor that members of 
this committee had been told that the CIA and the DIA did not 
concur in sending a particular detainee back to Yemen, the 
national security advisor told me that those agencies would be 
reminded of the administration's decision.
    Now, as I think we discussed once before, the 
administration's decision is their decision, but if there is an 
implication that the intelligence committee should not be told 
honestly and frankly of advice that you give to the 
policymakers--whether it's accepted or not--that troubles me. 
So will you commit to providing the committee the honest and 
forthright recommendations and assessments that you make, 
regardless of whether they are accepted ultimately by 
policymakers?
    General Clapper. Yes, sir, I would. Again, as we discussed 
before, this is an interagency process. Intelligence is a very 
important, but not the exclusive, determinant. And it would be 
my view that intelligence should be as thorough and accurate as 
possible on making such assessments. And I don't see any 
problem with, once we've spoken our piece and if that was 
ignored, that's the process. And I certainly have no trouble--I 
wouldn't have any trouble conveying that to the committee.
    Vice Chairman Bond. Good, because in case you're advised of 
the position, we want the intelligence regardless of what the 
position may come up with.
    Let me go into another interesting area. You gave a 
conference speech in 2008 to GEOINT, which my staff managed to 
track down. And you said that at that point, ``I hope the next 
administration will give some thought, I mean the Congress as 
well, to maybe another look at the National Security Act of 
1947, maybe a Goldwater-Nichols for the interagency.''
    But in the answers to the committee's questionnaire you 
said you had no plan to recommend to the President any dramatic 
change, but rather look to improve it. There are some of us 
that think the Goldwater-Nichols recommendation was similar to 
what came out of the Project on National Security Reform that 
General Jones, Susan Rice, Jim Steinberg participated in before 
they joined the administration. The administration apparently 
has not gone along with that. As your recommendation--did your 
recommendation change as a result of the administration's 
position, or do you think we need to take another look at the 
National Security Act of 1947?
    General Clapper. I think--what has been discussed about it, 
and I don't exactly remember the GEOINT discussion. I think it 
had to do with the discussion that was at the time. I remember 
specifically former chairman of the JCS, Pete Pace, who was a 
proponent for a Goldwater-Nichols for the interagency, which 
could--you know, that might have merit.
    I do think it's a different proposition, as Secretary 
Gates, I think correctly, points out, that Goldwater-Nichols in 
its original form, of course, only applied to one department. 
So perhaps the principles of Goldwater-Nichols could be applied 
perhaps in an interagency context.
    Vice Chairman Bond. Well basically, that's what the DNI is; 
it's an interagency agency. And that's maybe--well, we will 
discuss that further. But are there any particular aspects of 
Goldwater-Nichols you believe should apply to the interagency?
    General Clapper. Well, one of the benefits of Goldwater-
Nichols--and I was around and was probably part of the legion 
of people that wrote papers in the Pentagon against it at the 
time in the early 1980s, but now of course it is the accepted 
norm. And what it meant in the department was placing a very 
high premium on jointness and on joint duty. And so that is one 
of the principles that was taken on, particularly by Director 
McConnell, which I certainly agree with.
    And we are experiencing a lot of mobility in the 
intelligence community so that people get out of their home 
stovepipe and move to other parts of the community. So that's a 
principle of Goldwater-Nichols that I think applies in the 
intelligence community and, for that matter, could apply in the 
interagency.
    Vice Chairman Bond. You suggest in answers to the committee 
questionnaire that the area of greatest ambiguity in IRTPA is 
the relationship with and authority of the DNI over the CIA. 
What do you think is ambiguous in the law?
    General Clapper. As I cited earlier, the IRTPA does 
stipulate that the Director of CIA--Director of the Central 
Intelligence Agency--is in charge of foreign intelligence 
relationships. And of course, that's what gave rise to the 
dispute between DNI Blair and the Director of CIA. And I think 
the law says that the DNI oversees those foreign relationships, 
whatever that means. So I think that is an area of ambiguity.
    Vice Chairman Bond. All right. Three changes that I think 
might go a long way--I think you've addressed at least one of 
them--would be giving the DNI milestone decision authority for 
all intelligence programs funded 50 percent or more by NIP; two 
would be changing the non-abrogation language in section 1018; 
and the third is appropriating NIP funds directly to the DNI, 
rather than through DOD and other departments.
    What are your feelings on those three measures--1018, 
milestone authority over----
    General Clapper. Well, I think there is an agreement now, 
which took the form of a memorandum agreement that was signed 
by Secretary Gates and Director McConnell that governs 
milestone decision authority. And of course it is a shared 
arrangement, depending on the predominance of the funding, 
whether it's in the department or in the NIP.
    Non-abrogation, section 1018, was addressed in the revision 
to Executive Order 12333. And there was some language appended 
to that that basically amplified the process for potential 
resolution of disputes, if in fact they had to go to the White 
House.
    So at this point, I'm not prepared--as a nominee, 
certainly--to make any recommendations about amending section 
1018.
    On DOD funding, I have been a proponent for taking the NIP 
out of the DOD. Now, that carries with it some baggage, if you 
will, in terms of the staffing mechanisms and processing, but I 
think the long-term impact of that would be to actually 
strengthen the DNI's authorities over the National Intelligence 
Program.
    Given the revelation of the top line appropriated number of 
the National Intelligence Program, the original reason for 
burying that number in the Department of Defense budget kind of 
goes away. And I have similarly argued--and the Secretary has 
approved--publicizing the Military Intelligence Program for the 
sake of completeness, both for the Congress and the public to 
know the totality of the investment in intelligence in this 
country.
    Vice Chairman Bond. Finally, you mentioned that you had 
looked over the bill that Senator Hatch and I had on setting up 
a national cyber center and a cyber defense alliance. Are there 
any further thoughts that you have to share about that bill or 
where we should be going on cyber?
    General Clapper. Well, sir, there are, as you know, many--I 
think there's 34, 35 legislative proposals now in play which 
address a whole range of cyber, cyber-related issues. So I 
don't want to preempt the administration on picking and 
choosing which bill they like.
    I do think, though, there are some appealing features in 
the bill that you and Senator Hatch are sponsoring, which is 
putting someone clearly in charge, having an identifiable 
budget aggregation, co-location either physically or virtually, 
I think. So those features--I have not read the bill itself but 
I've read about it--I think are appealing.
    Vice Chairman Bond. And the other thing, the importance 
that--I think the thing that was different, the cyber defense 
alliance would be a means for the private sector to come 
together with government agencies and each other, protected 
from FOIA and antitrust or other challenges, to discuss and 
share information on the threats that were coming in. And if 
you have any further information on that, I would appreciate 
hearing it, either now or later.
    General Clapper. Sir, I would recommend--if you haven't 
already--some dialogue with the Deputy Secretary Bill Lynne, 
who has been very much in the lead for engaging with the 
civilian sector, particularly the defense intelligence base, on 
doing exactly this. And he's done a lot of work, given this a 
lot of thought. So I would commend a dialogue with him.
    Vice Chairman Bond. All right. Well, thank you. And we've 
talked with many, many different private sector elements who 
are concerned that they don't feel comfortable, don't know 
where to go, or how to get information and share it. And I 
think they can be very, very perhaps helpful to each other and 
to the government in identifying the threats that are coming 
in.
    Well, thank you very much, General. As I said, we'll have 
some questions for the record. And I think there may be some 
classified questions for that, and we'll wait to hear a 
response. And thank you for the time that you've given us.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman 
and General Clapper. I think we've come to the end of the 
afternoon.
    Again, for all staff, if you can let your Members know, 
please get the questions in by noon tomorrow. General Clapper 
will address them as quickly as possible. We will then make a 
decision whether we need a closed hearing. Perhaps these 
questions can be asked in a classified fashion in writing. If 
not, we will have a closed hearing, and we will try and move 
this just as quickly as possible.
    So, well done, General, and thank you everybody, and the 
hearing is adjourned.
    [Whereupon, at 5:43 p.m., the Committee adjourned.]

                         Supplemental Material

[GRAPHIC] [TIFF OMITTED] T3996.001

[GRAPHIC] [TIFF OMITTED] T3996.002

[GRAPHIC] [TIFF OMITTED] T3996.003

[GRAPHIC] [TIFF OMITTED] T3996.004

[GRAPHIC] [TIFF OMITTED] T3996.005

[GRAPHIC] [TIFF OMITTED] T3996.006

[GRAPHIC] [TIFF OMITTED] T3996.007

[GRAPHIC] [TIFF OMITTED] T3996.008

[GRAPHIC] [TIFF OMITTED] T3996.009

[GRAPHIC] [TIFF OMITTED] T3996.010

[GRAPHIC] [TIFF OMITTED] T3996.011

[GRAPHIC] [TIFF OMITTED] T3996.012

[GRAPHIC] [TIFF OMITTED] T3996.013

[GRAPHIC] [TIFF OMITTED] T3996.014

[GRAPHIC] [TIFF OMITTED] T3996.015

[GRAPHIC] [TIFF OMITTED] T3996.016

[GRAPHIC] [TIFF OMITTED] T3996.017

[GRAPHIC] [TIFF OMITTED] T3996.018

[GRAPHIC] [TIFF OMITTED] T3996.019

[GRAPHIC] [TIFF OMITTED] T3996.020

[GRAPHIC] [TIFF OMITTED] T3996.021

[GRAPHIC] [TIFF OMITTED] T3996.022

[GRAPHIC] [TIFF OMITTED] T3996.023

[GRAPHIC] [TIFF OMITTED] T3996.024

[GRAPHIC] [TIFF OMITTED] T3996.025

[GRAPHIC] [TIFF OMITTED] T3996.026

[GRAPHIC] [TIFF OMITTED] T3996.027

[GRAPHIC] [TIFF OMITTED] T3996.028

[GRAPHIC] [TIFF OMITTED] T3996.029

[GRAPHIC] [TIFF OMITTED] T3996.030

[GRAPHIC] [TIFF OMITTED] T3996.031

[GRAPHIC] [TIFF OMITTED] T3996.032

[GRAPHIC] [TIFF OMITTED] T3996.033

[GRAPHIC] [TIFF OMITTED] T3996.034

[GRAPHIC] [TIFF OMITTED] T3996.035

[GRAPHIC] [TIFF OMITTED] T3996.036

[GRAPHIC] [TIFF OMITTED] T3996.037

[GRAPHIC] [TIFF OMITTED] T3996.038

[GRAPHIC] [TIFF OMITTED] T3996.039

[GRAPHIC] [TIFF OMITTED] T3996.040

[GRAPHIC] [TIFF OMITTED] T3996.041

[GRAPHIC] [TIFF OMITTED] T3996.042

[GRAPHIC] [TIFF OMITTED] T3996.043

[GRAPHIC] [TIFF OMITTED] T3996.044

[GRAPHIC] [TIFF OMITTED] T3996.045

[GRAPHIC] [TIFF OMITTED] T3996.046

[GRAPHIC] [TIFF OMITTED] T3996.047

[GRAPHIC] [TIFF OMITTED] T3996.048

[GRAPHIC] [TIFF OMITTED] T3996.049

[GRAPHIC] [TIFF OMITTED] T3996.050

[GRAPHIC] [TIFF OMITTED] T3996.051

[GRAPHIC] [TIFF OMITTED] T3996.052

[GRAPHIC] [TIFF OMITTED] T3996.053

[GRAPHIC] [TIFF OMITTED] T3996.054

[GRAPHIC] [TIFF OMITTED] T3996.055

[GRAPHIC] [TIFF OMITTED] T3996.056

[GRAPHIC] [TIFF OMITTED] T3996.057

[GRAPHIC] [TIFF OMITTED] T3996.058

[GRAPHIC] [TIFF OMITTED] T3996.059

[GRAPHIC] [TIFF OMITTED] T3996.060

[GRAPHIC] [TIFF OMITTED] T3996.061

[GRAPHIC] [TIFF OMITTED] T3996.062

[GRAPHIC] [TIFF OMITTED] T3996.063

[GRAPHIC] [TIFF OMITTED] T3996.064

[GRAPHIC] [TIFF OMITTED] T3996.065

[GRAPHIC] [TIFF OMITTED] T3996.066

[GRAPHIC] [TIFF OMITTED] T3996.067

[GRAPHIC] [TIFF OMITTED] T3996.068

[GRAPHIC] [TIFF OMITTED] T3996.069

[GRAPHIC] [TIFF OMITTED] T3996.070

[GRAPHIC] [TIFF OMITTED] T3996.071

[GRAPHIC] [TIFF OMITTED] T3996.072

[GRAPHIC] [TIFF OMITTED] T3996.073

[GRAPHIC] [TIFF OMITTED] T3996.074

[GRAPHIC] [TIFF OMITTED] T3996.075

[GRAPHIC] [TIFF OMITTED] T3996.076

[GRAPHIC] [TIFF OMITTED] T3996.077

[GRAPHIC] [TIFF OMITTED] T3996.078

[GRAPHIC] [TIFF OMITTED] T3996.079

[GRAPHIC] [TIFF OMITTED] T3996.080

[GRAPHIC] [TIFF OMITTED] T3996.081

[GRAPHIC] [TIFF OMITTED] T3996.082

[GRAPHIC] [TIFF OMITTED] T3996.083

[GRAPHIC] [TIFF OMITTED] T3996.084

[GRAPHIC] [TIFF OMITTED] T3996.085

[GRAPHIC] [TIFF OMITTED] T3996.086

[GRAPHIC] [TIFF OMITTED] T3996.087

[GRAPHIC] [TIFF OMITTED] T3996.088

[GRAPHIC] [TIFF OMITTED] T3996.089

[GRAPHIC] [TIFF OMITTED] T3996.090

[GRAPHIC] [TIFF OMITTED] T3996.091

[GRAPHIC] [TIFF OMITTED] T3996.092

[GRAPHIC] [TIFF OMITTED] T3996.093

[GRAPHIC] [TIFF OMITTED] T3996.094

[GRAPHIC] [TIFF OMITTED] T3996.095

[GRAPHIC] [TIFF OMITTED] T3996.096

[GRAPHIC] [TIFF OMITTED] T3996.097

[GRAPHIC] [TIFF OMITTED] T3996.098

[GRAPHIC] [TIFF OMITTED] T3996.099

[GRAPHIC] [TIFF OMITTED] T3996.100

[GRAPHIC] [TIFF OMITTED] T3996.101

[GRAPHIC] [TIFF OMITTED] T3996.102

[GRAPHIC] [TIFF OMITTED] T3996.103

[GRAPHIC] [TIFF OMITTED] T3996.104

[GRAPHIC] [TIFF OMITTED] T3996.105

[GRAPHIC] [TIFF OMITTED] T3996.106

[GRAPHIC] [TIFF OMITTED] T3996.107

[GRAPHIC] [TIFF OMITTED] T3996.108

[GRAPHIC] [TIFF OMITTED] T3996.109

[GRAPHIC] [TIFF OMITTED] T3996.110

[GRAPHIC] [TIFF OMITTED] T3996.111

[GRAPHIC] [TIFF OMITTED] T3996.112

[GRAPHIC] [TIFF OMITTED] T3996.113

[GRAPHIC] [TIFF OMITTED] T3996.114

[GRAPHIC] [TIFF OMITTED] T3996.115

[GRAPHIC] [TIFF OMITTED] T3996.116

[GRAPHIC] [TIFF OMITTED] T3996.117

[GRAPHIC] [TIFF OMITTED] T3996.118

[GRAPHIC] [TIFF OMITTED] T3996.119

[GRAPHIC] [TIFF OMITTED] T3996.120

[GRAPHIC] [TIFF OMITTED] T3996.121

[GRAPHIC] [TIFF OMITTED] T3996.122

[GRAPHIC] [TIFF OMITTED] T3996.123

[GRAPHIC] [TIFF OMITTED] T3996.124

[GRAPHIC] [TIFF OMITTED] T3996.125

[GRAPHIC] [TIFF OMITTED] T3996.126

[GRAPHIC] [TIFF OMITTED] T3996.127

[GRAPHIC] [TIFF OMITTED] T3996.128

[GRAPHIC] [TIFF OMITTED] T3996.129

[GRAPHIC] [TIFF OMITTED] T3996.130

[GRAPHIC] [TIFF OMITTED] T3996.131

[GRAPHIC] [TIFF OMITTED] T3996.132

[GRAPHIC] [TIFF OMITTED] T3996.133

[GRAPHIC] [TIFF OMITTED] T3996.134

[GRAPHIC] [TIFF OMITTED] T3996.135

[GRAPHIC] [TIFF OMITTED] T3996.136

[GRAPHIC] [TIFF OMITTED] T3996.137

[GRAPHIC] [TIFF OMITTED] T3996.138

[GRAPHIC] [TIFF OMITTED] T3996.139

[GRAPHIC] [TIFF OMITTED] T3996.140

[GRAPHIC] [TIFF OMITTED] T3996.141

[GRAPHIC] [TIFF OMITTED] T3996.142

[GRAPHIC] [TIFF OMITTED] T3996.143

[GRAPHIC] [TIFF OMITTED] T3996.144

[GRAPHIC] [TIFF OMITTED] T3996.145

[GRAPHIC] [TIFF OMITTED] T3996.146

[GRAPHIC] [TIFF OMITTED] T3996.147

[GRAPHIC] [TIFF OMITTED] T3996.148

[GRAPHIC] [TIFF OMITTED] T3996.149

[GRAPHIC] [TIFF OMITTED] T3996.150

[GRAPHIC] [TIFF OMITTED] T3996.151

[GRAPHIC] [TIFF OMITTED] T3996.152

[GRAPHIC] [TIFF OMITTED] T3996.153

[GRAPHIC] [TIFF OMITTED] T3996.154

[GRAPHIC] [TIFF OMITTED] T3996.155

[GRAPHIC] [TIFF OMITTED] T3996.156

[GRAPHIC] [TIFF OMITTED] T3996.157

[GRAPHIC] [TIFF OMITTED] T3996.158

[GRAPHIC] [TIFF OMITTED] T3996.159

[GRAPHIC] [TIFF OMITTED] T3996.160

[GRAPHIC] [TIFF OMITTED] T3996.161

[GRAPHIC] [TIFF OMITTED] T3996.162

[GRAPHIC] [TIFF OMITTED] T3996.163

[GRAPHIC] [TIFF OMITTED] T3996.164

[GRAPHIC] [TIFF OMITTED] T3996.165

[GRAPHIC] [TIFF OMITTED] T3996.166

[GRAPHIC] [TIFF OMITTED] T3996.167

[GRAPHIC] [TIFF OMITTED] T3996.168

[GRAPHIC] [TIFF OMITTED] T3996.169

[GRAPHIC] [TIFF OMITTED] T3996.170

[GRAPHIC] [TIFF OMITTED] T3996.171

[GRAPHIC] [TIFF OMITTED] T3996.172

[GRAPHIC] [TIFF OMITTED] T3996.173

[GRAPHIC] [TIFF OMITTED] T3996.174

[GRAPHIC] [TIFF OMITTED] T3996.175

[GRAPHIC] [TIFF OMITTED] T3996.176

[GRAPHIC] [TIFF OMITTED] T3996.177

[GRAPHIC] [TIFF OMITTED] T3996.178

[GRAPHIC] [TIFF OMITTED] T3996.179

[GRAPHIC] [TIFF OMITTED] T3996.180

[GRAPHIC] [TIFF OMITTED] T3996.181

[GRAPHIC] [TIFF OMITTED] T3996.182

[GRAPHIC] [TIFF OMITTED] T3996.183

[GRAPHIC] [TIFF OMITTED] T3996.184

[GRAPHIC] [TIFF OMITTED] T3996.185

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
